<html>
<title> - OVERSIGHT OF CUSTOMER SERVICE AT THE OFFICE OF WORKERS' COMPENSATION PROGRAMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
 OVERSIGHT OF CUSTOMER SERVICE AT THE OFFICE OF WORKERS' COMPENSATION 
                                PROGRAMS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 1999

                               __________

                           Serial No. 106-87

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
62-686 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
   Bonnie Heald, Director of Communications/Professional Staff Member
                          Mason Alinger, Clerk
                     Faith Weiss, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 18, 1999.....................................     1
Statement of:
    Balen, Beth, administrator, Anchorage Fracture and Orthopedic 
      Clinic; John Riordan, first vice-president, Council 220, 
      American Federation of Government Employees; James Linehan, 
      lawyer, James R. Linehan, P.C.; and Tina Maggio, field 
      representative, Office of Representative Michael F. Doyle..    46
    Chamberlin, Thomas, former agent of Federal Bureau of 
      Investigation; Dianne McGuinnes, former employee of Social 
      Security Administration; and Matthew Fairbanks, Special 
      Agent/Pilot, Drug Enforcement Agency.......................     8
    Dalton, Patricia, Deputy Inspector General, Office of 
      Inspector General, Department of Labor, accompanied by Amy 
      Friedlander, Evaluations; and Shelby Hallmark, Deputy 
      Director, Office of Workers' Compensation Programs, 
      Department of Labor, accompanied by Sharon Tyler, District 
      Director, San Francisco Regional Office....................   221
Letters, statements, et cetera, submitted for the record by:
    Balen, Beth, administrator, Anchorage Fracture and Orthopedic 
      Clinic, prepared statement of..............................    49
    Chamberlin, Thomas, former agent of Federal Bureau of 
      Investigation:
        Letter dated April 26, 1996..............................    10
        Prepared statement of....................................    18
    Dalton, Patricia, Deputy Inspector General, Office of 
      Inspector General, Department of Labor:
        Customer service survey..................................   340
        Prepared statement of....................................   223
        Program performance review...............................   315
    Fairbanks, Matthew, Special Agent/Pilot, Drug Enforcement 
      Agency, prepared statement of..............................    38
    Hallmark, Shelby, Deputy Director, Office of Workers' 
      Compensation Programs, Department of Labor:
        Information concerning budget history....................   247
        Prepared statement of....................................   235
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Prepared statement of....................................     3
        Statement of John D. McLellan, Jr........................   344
    Linehan, James, lawyer, James R. Linehan, P.C.:
        Additional information concerning a conversation.........   206
        Prepared statement of....................................   172
    Maggio, Tina, field representative, Office of Representative 
      Michael F. Doyle:
        Letter dated August 4, 1998..............................   184
        Letter dated October 29, 1998............................   180
        Prepared statement of....................................   194
    McGuinnes, Dianne, former employee of Social Security 
      Administration:
        Transcript of a taped conversation.......................    27
        Prepared statement of....................................    31
    Riordan, John, first vice-president, Council 220, American 
      Federation of Government Employees, prepared statement of..   165
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     5


 OVERSIGHT OF CUSTOMER SERVICE AT THE OFFICE OF WORKERS' COMPENSATION 
                                PROGRAMS

                              ----------                              


                         TUESDAY, MAY 18, 1999

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Biggert.
    Staff present: J. Russell George, staff director and chief 
counsel; Matthew Ebert, policy advisor; Bonnie Heald, director 
of communications/professional staff member; Mason Alinger, 
clerk; Faith Weiss, minority counsel; and Earley Green, 
minority staff assistant.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will come to order. We are here 
today to learn how well the Office of Workers' Compensation 
Programs at the Department of Labor is treating Federal workers 
who are injured on the job.
    The Federal Employees Compensation Act authorizes Federal 
agencies to compensate Federal employees when their injuries 
are sustained on the job. The act was intended to develop a 
nonadversarial arrangement whereby Federal employees would be 
compensated in a fair and equitable way while reducing the 
Federal Government's exposure to tort liability.
    Concerned by allegations that the process is unfair and 
structurally flawed, the subcommittee held a hearing in Long 
Beach, CA, on July 6 of last year to evaluate and discuss these 
issues. The complaints involved delays in medical 
authorizations, payments for medical treatment and the lack of 
judicial recourse. Some of these delays were so serious that 
one injured worker testified that the waiting period left him 
financially devastated and nearly cost him his life.
    What was especially evident in all of the testimony were 
concerns with the customer service issues at the Office of 
Workers' Compensation Programs [OWCP]. It was alleged that it 
is very difficult for a claimant to make contact with the 
office and that the response rate is very poor. Testimony 
suggested that when a claims examiner has been reached, the 
Federal worker receives little or no guidance. It has been 
suggested time and time again that Federal workers have to turn 
to lawyers, unions, and congressional offices to assist them in 
getting a simple response.
    Union members, congressional offices, lawyers and 
individuals who are entrenched in the claims process continue 
to contact the subcommittee about their negative experiences 
with the Office of Workers' Compensation Programs, the agency 
responsible for administering claims for injured workers. Some 
of these people will not be able to testify today, but will 
submit statements for the record.
    Senator Slade Gorton of Washington has expressed his 
frustration in assisting constituents who are struggling with 
their workers' compensation claims.
    Mr. Gorton will be submitting a statement for the record, 
as will Mr. John D. McLellan, Jr., a former Director of the 
Federal Employees' Compensation Programs, a division of the 
Office of Workers' Compensation Programs. After retiring in 
1985, Mr. McClellan, a lawyer, attempted for 8 years to assist 
Federal injured workers through the FECA appeals process. His 
testimony is especially revealing, because of his close 
contacts with the OWCP and frustrations in attempting to guide 
Federal injured workers through the process. Mr. McClellan's 
statement will also be submitted for the record.
    Today, the subcommittee will examine whether the Office of 
Workers' Compensation Programs is performing its mission of 
administering the Federal Employees' Compensation Act in a 
fair, timely, and efficient manner. The subcommittee will also 
examine how well the agency is doing in developing top-of-the-
line customer service. In addition, we will examine the 
effectiveness and accuracy of the agency's customer service 
survey.
    The first panel will include former Federal employees who 
have been injured on the job. These witnesses will describe the 
nature of their experiences throughout the claims process and 
the obstacles they have confronted.
    The second panel of witnesses consists of professionals who 
have dealt with the Office of Workers' Compensation Programs 
while treating, representing or assisting Federal injured 
workers through the appeals process. These witnesses represent 
a medical clinic, a Federal union, a law firm and a 
congressional office.
    Panel III will include representatives of the Office of 
Workers' Compensation Programs, who will discuss improvements 
in customer service at the agency, and a representative of the 
Office of Inspector General of the Department of Labor, who 
will discuss its recommendations for improving the medical 
authorization process and the agency's customer service survey.
    I welcome our witnesses today, and I look forward to their 
testimony.
    [The prepared statements of Hon. Stephen Horn and Hon. Jim 
Turner follow:]

[GRAPHIC] [TIFF OMITTED]62686.001

[GRAPHIC] [TIFF OMITTED]62686.002

[GRAPHIC] [TIFF OMITTED]62686.003

[GRAPHIC] [TIFF OMITTED]62686.004

[GRAPHIC] [TIFF OMITTED]62686.005

    Mr. Horn. Let me explain how we will go about this. Since 
this is an investigating subcommittee of the Committee on 
Government Reform, all of our witnesses are sworn prior to 
their testimony, and we will begin with panel I this morning. I 
see they are in their chairs.
    Mr. Thomas Chamberlin, former agent of the Federal Bureau 
of Investigation. Welcome, Mr. Chamberlin. Dianne McGuinness, 
former employee of the Social Security Administration. Welcome. 
And Matthew Fairbanks, special agent/pilot, Drug Enforcement 
Agency. We welcome you also.
    So if you will stand and raise your right hands.
    [Witnesses affirmed.]
    Mr. Horn. The clerk will note all three witnesses affirmed.
    We will begin with this panel; and if we have time before 
12:15, we will begin with part of panel II, Beth Balen in 
particular. She has come the longest distance, namely 
Anchorage, AK; and we want to accommodate her. We will try to 
go all through panel I and begin panel II, and at 12:15 we will 
take a break until 2 p.m., when the hearing will pick up again.
    So, Mr. Chamberlin, why don't you tell us in your own 
words, because we have all read the documents, which are very 
detailed and very helpful to us, but summarize for us, if you 
would, because we would like to enter into a dialog on this in 
terms of questions and answers. So don't feel you have to read 
everything.
    We are going to give you at least 10 minutes here to get 
through your statement; and then we will go to the next person, 
Ms. McGuinness, Mr. Fairbanks; and then we will have questions.
    So please proceed.

STATEMENTS OF THOMAS CHAMBERLIN, FORMER AGENT OF FEDERAL BUREAU 
 OF INVESTIGATION; DIANNE MCGUINNES, FORMER EMPLOYEE OF SOCIAL 
 SECURITY ADMINISTRATION; AND MATTHEW FAIRBANKS, SPECIAL AGENT/
                 PILOT, DRUG ENFORCEMENT AGENCY

    Mr. Chamberlin. Mr. Chairman and distinguished members of 
the subcommittee, thank you for providing me the opportunity to 
present the barriers I have encountered in the process of 
filing a workers' compensation claim with the Office of 
Workers' Compensation Programs with the intent to provide a 
synopsis of DOL-OWCP's action for analysis to improve 
effectiveness and efficiency.
    Mr. Chairman, I previously submitted a statement for the 
hearing today. Therefore, I will briefly summarize the barriers 
I have encountered.
    I had approximately 25 years of Federal service when I 
filed my claim. I had proudly served with the United States 
Marine Corps in Vietnam. Following that, I had a brief 
construction service, and then I began my law enforcement 
career with the Washington, DC, police, metropolitan DC. Then I 
followed over as a special agent with the Drug Enforcement 
Agency, and I concluded my career as a special agent with the 
Federal Bureau of Investigation.
    In 1993, after having been identified as a whistle-blower 
for reporting improper Title III wiretap matters, the FBI 
targeted me for a character assassination. This is where the 
problems erupted. Subsequently, I was removed from the rolls of 
the FBI in 1994.
    On October 17, 1995, I filed a claim at the Department of 
Labor's Office of Workers' Compensation Programs, a claim which 
has yet to be finalized. The three barriers I encountered are 
incompetency, inaction and an adversarial position. The 
exhibits I will present will overlap in these three areas.
    I encountered these barriers first during the initial 
filings of my claim. In summary, it took 10 months, six 
mailings, unlimited calls, and action of the Secretary of Labor 
to initiate the filing of the claim.
    The first exhibit I present is from Chris Brandstrip, 
supervisory claims examiner, Department of Labor; and it is 
dated April 26th; and it is to the FBI requesting compliance.
    Mr. Horn. Without objection, this letter will be put in the 
record at this point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.006
    
    [GRAPHIC] [TIFF OMITTED]62686.007
    
    [GRAPHIC] [TIFF OMITTED]62686.008
    
    [GRAPHIC] [TIFF OMITTED]62686.009
    
    [GRAPHIC] [TIFF OMITTED]62686.010
    
    [GRAPHIC] [TIFF OMITTED]62686.011
    
    Mr. Horn. Thank you. Please proceed.
    Mr. Chamberlin. It is dated in April, and it states that 
DOL-OWCP had a copy of the claim completed by Mr. Chamberlin 
dated on October 18th and that they request why the FBI hasn't 
began processing it.
    The next memo was a memo from Department of Labor, and it 
indicates here, this is approximately 1 year later, my entire 
package from my file was returned to me. And it states, ``This 
person is not a Federal employee. We are returning the 
materials you have submitted for your disposition.'' The memo 
is not signed, does not bear a name. It just returned the 
entire package.
    That was what I had encountered in trying to file the 
claim.
    Following that, the second segment was and is going to 
review process.
    After having filed the claim, I had inquired with William 
Israel, the claims examiner, to see if he had received my 
package. There had been a total of six mailings, all registered 
return receipt. This is exhibit 3. And on that the exhibits are 
signed bearing a similar signature from a DOL-OWCP employee, 
and the dates range from September 1996 up to and including 
March 1998.
    Of significance is the one on November 25, 1996. This is 
the reconsideration I had submitted to Mr. Israel, and Mr. 
Israel had stated he had not received the package. However, it 
is the same signature that the other five bear.
    Following this is what I have labeled as the notorious 
Karen Mendernach homicidal-suicidal memo. After having been 
targeted as a whistle-blower, on July 19, 1993, Special Agent 
Mendernach prepared a confidential memo to FBI headquarters and 
FBI management in Detroit stating, ``Chamberlin may be 
emotionally or mentally unstable. Several agents believe he may 
be a danger to himself as well as to others. The agents 
requested anonymity.''
    This report I have been unable to obtain for quite a period 
of time. My attorneys, my treating doctors had requested it, 
and I had pleaded with the Department of Labor, Office of 
Workers' Compensation Programs, to obtain the document, but to 
no avail. However, it was released on August 5, 1998, through a 
congressional inquiry from Honorable David Price. And that is 
the fifth exhibit.
    The final exhibit is a memo from Marilyn Preuit, a hearing 
representative, and this is the denial of my last 
reconsideration. And in that she specifically states, ``If you 
disagree with this decision, you have the right to appeal 
before the Employees' Compensation Appeals Board.''
    Additionally, I had talked with Stephanie Stone as well as 
Deputy Director Sheila Williams in regards to do I have the 
right to appeal for a reconsideration. Ms. Williams 
specifically told me that she did not have that answer and that 
she would have to do the research to find out if I had the 
right for reconsideration.
    Concluding, the DOL-OWCP also maintains the position it is 
a security matter. I challenge this, for during the Merit 
Systems Protection Board in December 1994, Administrative Law 
Judge Nina Puglia had informed my attorney that it was an open 
court matter and that it was open to the public. Additionally, 
OWCP claims security, while the FBI has only produced 
approximately 20 pages, while the claimant has submitted over 
1,000 pages of FBI documents, all of which are unclassified.
    In conclusion, Mr. Chairman and distinguished members of 
the subcommittee, I would again like to personally thank you 
for allowing me to participate in this hearing.
    [The prepared statement of Mr. Chamberlin follows:]

    [GRAPHIC] [TIFF OMITTED]62686.012
    
    [GRAPHIC] [TIFF OMITTED]62686.013
    
    [GRAPHIC] [TIFF OMITTED]62686.014
    
    [GRAPHIC] [TIFF OMITTED]62686.015
    
    [GRAPHIC] [TIFF OMITTED]62686.016
    
    [GRAPHIC] [TIFF OMITTED]62686.017
    
    Mr. Horn. Let me just pick up one question to clarify the 
exhibits.
    You mention the July 19, 1993, memorandum from Karen Z. 
Mendernach to James R. Perez, Equal Employment Opportunity 
officer. You note that throughout your testimony and call it 
notorious, and you say they are documenting such an 
unsubstantiated allegation. Did this individual, Karen 
Mendernach, ever talk to you, ever examine you in any way?
    Mr. Chamberlin. No, she didn't. I had requested this memo; 
and, as of August 1993, I had never been able to retrieve it 
and the FBI was in denial of the actual document.
    Mr. Horn. How large is this document? Is it just this one-
page memo? Are there attachments to it? Or what have you found 
out?
    Mr. Chamberlin. Sir, through various avenues of litigation, 
I have determined that there are several other documents 
surrounding it. I have seen ASAC Stapleton had referred to 
this; and during interviews in regard to these agents I have 
been unable to obtain any of those documents.
    Mr. Horn. So, you feel those documents do exist. People 
have based judgments on them, and yet you cannot get a copy of 
that, even though it concerns you. And, you would think if they 
are going to give a psychiatric exam, you would remember it?
    Mr. Chamberlin. Yes, sir.
    Mr. Horn. And they didn't give a psychiatric exam.
    Mr. Chamberlin. Correct. On two occasions, I believe it was 
September 17th and October 6, 1993, FBI management in Detroit 
had requested a psychiatric exam, unbeknownst to me. And I 
don't know what documents evolved from that, and I was never 
required to submit for a psychiatric exam, and they refused to 
present any of the documents. And my doctors have made over 20 
requests, as well as the attorneys, to obtain documents 
relevant to it; and the FBI refused to comply.
    Additionally, I have pleaded with the Department of Labor, 
Office of Workers' Compensation Programs, for assistance. And 
claims examiner--I believe it was Gloria Watson had informed me 
that she had obtained sufficient documents, and that would be 
roughly these 20 pages from the FBI, and that they were not 
going to require them.
    Mr. Horn. Do you know if Karen Mendernach is an M.D.?
    Mr. Chamberlin. No, she is an FBI agent with a Bachelor's 
degree.
    Mr. Horn. So she doesn't have a medical degree.
    Mr. Chamberlin. Correct.
    Mr. Horn. She is not a registered, board-certified 
psychiatrist; is that correct?
    Mr. Chamberlin. Correct.
    Mr. Horn. And yet she is making these judgments.
    Mr. Chamberlin. Correct.
    Mr. Horn. Do you know if she ever interviewed people that 
worked around you and have a list of those interviews 
somewhere?
    Mr. Chamberlin. To my knowledge, she did interview, just 
referring to the memo. But they requested anonymity. And I 
addressed Rita Harrington, the Employees' Assistance 
Coordinator, pleading for these while I was an agent, stating 
that the FBI was letting me carry a loaded weapon around the 
office with these allegations, but they all refused.
    Mr. Horn. I would think it is a little difficult for agents 
to request anonymity if they can simply libel a fellow worker, 
and I can't believe that kind of stuff would go on. I am 
surprised the FBI would permit that.
    If they want to go to board-certified psychiatrists or 
psychologists, that's one thing, but just to have particular 
views of fellow workers and think you should give that any 
credence boggles the mind.
    So, you don't know about any more attachments to that. 
Presumably, those would be where they say several agents 
believe he may be a danger to others as well as to himself. The 
agents requested anonymity. Well, you are saying there's 
probably a file there somewhere and you have never been allowed 
to counter that file; is that correct?
    Mr. Chamberlin. Correct, sir. During my dismissal with the 
Merit Systems Protection Board we were able to obtain documents 
where the ASAC had referred to interviewing a number of agents 
and various documentations, as well as to request for the two 
psychiatric evaluations. However, the FBI has refused all of 
our requests.
    Mr. Horn. Now, you say on page 3 of your testimony the 
claimant was never ordered to undergo a psychiatric evaluation 
by the FBI. Did they ever ask you to undertake such an 
evaluation?
    Mr. Chamberlin. Never, sir.
    Mr. Horn. You note that Congressman David Price, one of our 
most esteemed Members here, successfully obtained the notorious 
memo to which we have referred here; and in August 1998, after 
5 years of requests by the employee, treating doctors, 
attorneys, and Senators, the FBI continues to withhold several 
other relevant documents. Such as what? What do you surmise 
they still have?
    Mr. Chamberlin. Such as the interviews in regards to these 
agents. Such as all the documentation--when FBI management in a 
division requests a psychiatric evaluation, they must submit 
written documents to support their request for the psychiatric 
evaluation and, in turn, FBI headquarters will respond back to 
them in a written document.
    And so, therefore, there were two requests, and I have been 
unable to obtain the documents pertaining to the two requests, 
the documents that would support the two requests, as well as 
FBI headquarters documents that would either support the 
request or deny the request.
    Mr. Horn. Well, thank you.
    Mr. Horn. We will now move to Ms. Dianne McGuinness, former 
employee of the Social Security Administration. Ms. McGuinness.
    Ms. McGuinness. Thank you. I wish to thank you for the 
honor of being here today. I am here to tell you about my 
frustrations with customer service at the Office of Workers' 
Compensation Programs. There are a few concerns I wish to 
discuss today, and while these are only two or three concerns, 
the magnitude is far greater.
    Mr. Kenneth Hamlett, Regional Director of the New York 
Office of Workers' Compensation Programs, threatened to deny my 
claim over and over if I went to my Congressmen. He told this 
to Miriam Madden, Director of Senator Alphonse D'Amato's 
office, on September 18, 1996; and she called me to tell me so. 
I submitted a copy of her statement for the record.
    Title 5 U.S.C. 7211, Employee's Right to Petition Congress, 
states, ``The right of employees, individually or collectively, 
to petition Congress or a Member of Congress, or to a committee 
or member thereof, may not be interfered with or denied.''
    There are times when I needed congressional assistance and 
assistance from my union representatives. These times arose 
when I could not get through on the telephones at the OWCP 
because they were either busy, the mailbox was full, or nobody 
returned my calls or answered my letters.
    I had problems getting copies of my file. Every few months 
I would ask for the current part of my file that I did not 
have. My informal requests were ignored, and my formal requests 
under the Privacy Act were ignored. I was even referred to as a 
liar by a claims examiner when my union explained the need for 
my file so that I may address my pretermination appeal.
    When I finally did get a copy of my file, there were 97 
pages of someone else's doctors' reports, memorandums, personal 
letters, et cetera, in my file. I contacted the other Federal 
injured worker, in another State, 1,500 miles away and in a 
different region, to tell him what I had found. I also 
contacted his Congressman, and we both contacted Congressman 
Horn's office to complain. Someone may have parts of my file in 
their file. I also found a job resume and several pages from a 
third person's file. This leads me to believe that my file 
wasn't worked. If my file was worked, the claims examiner would 
have found these documents.
    I was told that the unit supervisors do the filing. I 
called Jonathan Lawrence, District Director of the New York 
office, and I explained how difficult it was to get through on 
the telephones. Often I would get told from Customer Service 
they would take a message and a claims examiner would call me 
back within 3 days. Mr. Lawrence told me in this conversation 
that if people can travel and go here and there and do 
everything else, there is a possibility that they are not 
totally disabled. They can travel and do certain other things 
but they can't work, and that doesn't make sense to me. If a 
doctor says a person is unable to work, then they should be 
unable to leave their homes, he said.
    I submitted a tape recording of this conversation to the 
subcommittee and wish it to be made part of the record.
    Mr. Horn. Without objection, it will be put in the record 
at this point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.018
    
    [GRAPHIC] [TIFF OMITTED]62686.019
    
    [GRAPHIC] [TIFF OMITTED]62686.020
    
    Ms. McGuinness. I was also sent to an OWCP doctor for a 
neurological examination. I had my shoes on, all my clothes on, 
and the doctor told me he was in a rush. He did not touch my 
upper extremities or lower extremities during his examination. 
He did not perform any clinical tests to determine injuries to 
my upper extremities except for me to have him squeeze his 
hand. His bill for this examination was $285. The examination 
was less than 4 minutes, and it seemed that his charge was--he 
was being paid $75 a minute for this service. His examination 
resulted in a conflict of medical opinion.
    I submitted a tape recording to the subcommittee of this 
examination, and I wish it to be made part of the record.
    Last, it was Mr. Kenneth Hamlett, Regional Director of the 
New York office's treatment of me when I went to the office 
with my union president for a prescheduled appointment. The 
Regional Director told me that he was denying my physical 
therapy, sending me back to work very soon, sending me for a 
referee examination, ignoring my pretermination appeal, 
refusing me the right to participate in the selection process 
of an impartial physician, and denied me the right to see my 
file in person.
    I needed that file. I had a few more days left before I 
could complete my appeal, and I believe that he denied me the 
right to see my file so that my appeal would not be as complete 
as I would have liked it to be.
    He also threatened to have me removed by guards if he ever 
found me on the 7th floor without an appointment. I feel that 
Mr. Hamlett, in his capacity of Regional Director, was 
practicing medicine when he denied me my physical therapy; and, 
based on Mr. Kenneth Hamlett's statements, I assert that the 
outcome of my claim was predetermined so that I couldn't 
collect my legitimate benefits. He violated my rights, and the 
processing of my claim was at the direction of Mr. Hamlett.
    I defer any further testimony to Mr. John Riordan, then 
union president of AFGE 3369, who was present during my 
encounters with Mr. Hamlett.
    And I would like to add one thing: this statement took 
longer than Dr. Bloom's examination. I thank you and I welcome 
your questions.
    Mr. Horn. Well, thank you very much.
    [The prepared statement of Ms. McGuinness follows:]

    [GRAPHIC] [TIFF OMITTED]62686.021
    
    [GRAPHIC] [TIFF OMITTED]62686.022
    
    [GRAPHIC] [TIFF OMITTED]62686.023
    
    [GRAPHIC] [TIFF OMITTED]62686.024
    
    Mr. Horn. We now move to Mr. Fairbanks, Matthew Fairbanks, 
Special Agent/Pilot, Drug Enforcement Agency.
    Mr. Fairbanks. Chairman Horn and members of the 
subcommittee, thank you for the opportunity to testify today on 
the topic ``Oversight of Customer Service at the Office of 
Workers' Compensation Programs.''
    My name is Matt Fairbanks, and I am currently employed as a 
special agent with the U.S. Drug Enforcement Administration. 
Although I am an employee of DEA, I am appearing today as a 
private citizen, not as a Department of Justice employee or a 
DEA employee.
    My current duties are that of aviation specialist. I'm a 
pilot for the DEA. The job requirements in this position have 
taken me all over the United States and into Central and South 
America.
    On September 25, 1998, I was involved in a training flight 
accident. The flight was a beginning to transition myself into 
the helicopters. During the flight, my flight instructor 
demonstrated a very aggressive maneuver. As the terrain rushed 
up toward our OH 6 helicopter, I knew we were in serious 
trouble. With a loud crash, my instructor was killed; and I 
found myself trying to escape the burning wreckage. I wanted to 
get my instructor out also, but the flames finally drove me out 
of the inferno.
    I was life-flighted to Parkland Hospital, where I remained 
for 2 weeks, for which I have little or no memory. Upon arrival 
at the hospital, my blood pressure was dropping; and I was 
severely burned over 56 percent of my body. The emergency room 
physicians discovered that my spleen had been lacerated beyond 
repair and had to remove it in order to save me from bleeding 
to death.
    I then spent 4 weeks in the Burn Intensive Care Unit. While 
in the BICU, I had four operations in which viable skin was 
painfully harvested from unburned areas of my left arm and 
chest. This was accomplished via a high-tech cheese grater and 
a press. The tissue is now in place on my right arm and legs, 
and it continues on its 18-month journey to mature as grafted 
skin.
    After 6 weeks in Parkland Memorial Hospital, I was able to 
return to my home. My wounds were still open, and my care 
necessitated a daily nurse visit for IV antibiotics and wound 
cleaning. All of this was arranged by my workers' compensation 
case worker, Ms. Sue Maraglino. Additionally, I was required to 
make a 50-mile round trip to the hospital on a daily basis for 
therapy and wound care. Once again, all the arrangements, down 
to the transportation, were taken care of by my caseworker, Ms. 
Maraglino.
    As a nurse, Ms. Maraglino was able to answer all of my 
family's questions and address all of our concerns; and, as a 
caseworker, she was also attended to the important doctors' 
appointments which I had. To this day my recovery has not been 
hampered due to lack of funding, and I have been carefully 
informed about what to expect in the future and future 
surgeries.
    Over the months of my recovery, I have had numerous 
occasions to reflect upon my experiences as a DEA Special 
Agent. I recall my mission to the Oklahoma City bombing site. I 
was there as part of my duties as a Special Agent. However, 
others were there volunteering, volunteering their time trying 
to help in a hopeless situation.
    Various church groups and workers set up dinner banquets on 
a daily basis at our base of operations, with no charge. A 
construction worker, seeing my DEA jacket, approached me just 
to shake my hand and thank me for helping them take care of 
their own. Schoolchildren made signs and posters which were 
hanging everywhere. There was one in our bathroom hanging over 
the mirror which read, ``You are looking at a hero.'' A man 
stood at the entrance to the work area with little bags of 
cookies. He told us, ``My daughter made these for you. Please 
take a bag of cookies. It is her contribution.'' Even country 
singer Garth Brooks made a personal phone call to the son of 
DEA Special Agent Kenny McCoullough, who was killed in the 
blast. This phone call brightened the day of a little boy 
during a very dark time.
    These seemingly small acts provided me with great strength 
and drive while I was standing on that mountain of rubble, 
formerly known as the Alfred P. Murrah Federal Building. I 
could lift the next stone and clear the next level of the 
building in a continuing search. I did not find anyone alive, 
but I did find that the great spirit of America was not dead. I 
previously thought it was.
    The same experience which helped me deal with the broken 
remains of the Federal building laid a groundwork for me in 
dealing with the shattering conditions of my own life. I'm 
grateful to a caseworker who provided me with every means at 
her disposal to help me pick up the broken remains of my life 
and prepare to go on.
    While I lay there in my hospital bed, I recall hearing the 
news that another teenager in Plano, TX, had lost their life 
due to an overdose of heroin. It made me think about an event 
years earlier when I was a Dallas, TX, police officer on the 
streets of Dallas. I had arrested a poor disoriented junkie. As 
I checked for weapons, I came across a paper on which he had 
written the following:

    My name is cocaine, call me Crack for short
    I entered this country without a passport
    Ever since then, I've made scum from the rich
    Some have been murdered and found in a ditch
    I'm more valued than diamonds, more treasured than gold
    Use me just once and you too will be sold
    I'll make a school boy forget all his books
    I'll make a beauty queen forget her good looks
    I'll take a renowned speaker and make him a bore
    I'll take your own mother and make her a whore
    I'll make a school teacher forget how to teach
    And I'll make a preacher not want to preach
    I'll take your rent money and get you evicted
    I'll murder your babies, or they'll be born addicted
    I'll make you rob, and steal and kill
    When you're under my power, you'll have no will
    Remember my friend, my name is ``Big C''
    If you try me one time, you may never be free
    I've destroyed politicians, actors and heroes
    I've reduced bank accounts from millions to zeros
    I'll make shooting and stabbing a common affair
    Once I take charge, you won't have a prayer
    Now that you know me, what will you do?
    You'll have to decide, it's all up to you
    The decision is one to sit in my saddle,
    It is one that no one can straddle
    Listen to me, and please listen well
    When you ride with cocaine, you ride straight into hell.

    My life, my job, my responsibility to you collectively is 
about removing these soul-destructive elements from our 
society. Ms. Sue Maraglino's job is to get me back to health so 
that I can perform that task. She did her job, and as of 
Tuesday of last week, I am back to do mine.
    I'm familiar with the bureaucracy, and I've seen my share 
of government workers that are professionally ``less than 
anxious.'' Although others could have had an experience 
different than mine, I can say that if all caseworkers were as 
prompt and professional and courteous as mine, nothing more 
could be expected. Thank you.
    Mr. Horn. Thank you very much. That is a very moving 
statement and quite a poem, I must say.
    [The prepared statement of Mr. Fairbanks follows:]

    [GRAPHIC] [TIFF OMITTED]62686.025
    
    [GRAPHIC] [TIFF OMITTED]62686.026
    
    [GRAPHIC] [TIFF OMITTED]62686.027
    
    [GRAPHIC] [TIFF OMITTED]62686.028
    
    Mr. Horn. The gentlewoman from Illinois, the vice chairman 
of the subcommittee, will start the questioning.
    Mrs. Biggert. Mr. Fairbanks, about how long did it take you 
to resolve your case, then?
    Mr. Fairbanks. Everything was resolved on an ongoing, an 
as-needed basis, and there was never any--I had constant 
contact with my caseworker throughout each operation and each 
new phase, and so there was never anything that was unresolved.
    Mrs. Biggert. Was it in a reasonable amount of time, then, 
as you moved along? I'm wondering if it was before anything 
started. Did you have to wait a long time?
    Mr. Fairbanks. No, no, there were no waits. And during a 
large percentage of the time I was helpless and drugged up and 
incapacitated in the hospital. But, nevertheless, everything 
was always taken care of immediately; and there were no worries 
that my family or friends or the other agents that were helping 
me had.
    Mrs. Biggert. And, Ms. McGuinness, did you find the same 
prompt service?
    Ms. McGuinness. No, ma'am, I did not. There were always 
delays. I couldn't get materials that I needed. If I needed 
assistance or I had a question, if I needed a copy of my file, 
it was denied all the way through.
    Mrs. Biggert. Do you know other people that felt the same 
way?
    Ms. McGuinness. Yes. Yes, I do. A lot of people.
    Mrs. Biggert. And Mr. Chamberlin?
    Mr. Chamberlin. It took 10 months to get the file just 
accepted for review, and it was a letter to the Secretary of 
Labor. And then, following that, it has been approximately 5 
years; and the case remains pending.
    Mrs. Biggert. Was there a problem with having correct forms 
in your package? Was that a part of the delay, that you didn't 
fill out the forms correctly or the right forms?
    Mr. Chamberlin. No, it appeared that OWCP personnel just 
did not review the entire package. And, additionally, I had a 
number of doctors as well as the accompanying FBI documents 
that I was able to obtain submitted. However, the OWCP 
personnel would continuously almost misinterpret, be it 
intentionally or inadvertently, what the doctors were saying.
    The reports were there, and I would continue to submit it. 
And on one occasion, Mr. Israel, the claims examiner, had 
indicated that he was going to speak to Gloria Watson in 
regards to the fact he felt the entire facts were submitted for 
the case and the claim should be accepted, but nothing came to 
it.
    Mrs. Biggert. So did the FBI fulfill their end of the 
bargain and did they complete the forms properly that had to go 
for the workers' comp?
    Mr. Chamberlin. Absolutely not.
    Mrs. Biggert. And do you know why?
    Mr. Chamberlin. No, I'm unable to provide an explanation.
    Mrs. Biggert. So did the Office of Workers' Compensation 
Programs ever ask the FBI for these forms?
    Mr. Chamberlin. They did back in August of, I believe it 
was 1996; and said they submitted the minimum amount of 
documents. I have been attempting to obtain, as I indicated 
previously, 5 years to obtain the documents in regards to the 
allegations of me being homicidal, suicidal, and all the 
documentation surrounding it, and the FBI refuses to produce 
it.
    Mrs. Biggert. Was this the Mendernach homicidal-suicide 
memo?
    Mr. Chamberlin. That is one of the documents, yes.
    Mrs. Biggert. So the Office of Workers' Compensation 
Programs, were they willing to pursue these documents from the 
FBI?
    Mr. Chamberlin. No. In a FOIA request to OWCP, I had asked 
if they had any additional documents, other than the ones I had 
received from the FBI; and OWCP's position was, we have not 
communicated with the FBI nor do we intend to nor is there a 
need.
    Mrs. Biggert. And you got help from a Congressman?
    Mr. Chamberlin. Yes, Congressman Price.
    Mrs. Biggert. And so he helped you obtain that document.
    Mr. Chamberlin. Yes. He had submitted several inquiries on 
it and asking for specifically that document. And on their 
first release, they had provided a document to Congressman 
Price that was nonrelated, but it was written by Karen 
Mendernach on that same date, and that was just an action of 
their intentional deceit.
    Mrs. Biggert. What then was the reaction of the Office of 
Workers' Compensation Programs to supplying the document for 
the case file?
    Mr. Chamberlin. Following the submission of the----
    Mrs. Biggert. Yes.
    Mr. Chamberlin. The first time I had submitted it, which 
was last August and September, the report from OWCP completely 
ignored it. They did not address it and did not acknowledge 
receiving it. I had sent it to them, I had faxed it to them, 
and they had acknowledged receiving the fax. And I followed it 
up within the next 5 weeks with communications asking that it 
be forwarded to the appropriate claims examiner to ensure that 
they had it.
    On the decision by Ms. Preuit, they just did not address 
it. It is currently before them right now, and it is 128 days 
pending the reconsideration.
    Mrs. Biggert. But they have acknowledged the memo?
    Mr. Chamberlin. They have acknowledged receipt of the memo 
at the time I faxed it. They have not acknowledged the memo in 
their memorandum to the Director on the denial of the 
reconsideration.
    Mrs. Biggert. And you mentioned in your testimony that you 
are on your fourth reconsideration now?
    Mr. Chamberlin. Yes.
    Mrs. Biggert. And how long have you been waiting for a 
response to that?
    Mr. Chamberlin. 128 days.
    Mrs. Biggert. Did the workers' comp group issue a date in 
which they stated the decision on your claim would be provided?
    Mr. Chamberlin. They have indicated that it would be in 90 
days.
    Mrs. Biggert. You also stated in your testimony that you 
struggled to confirm your appeal right from OWCP. Why was this 
difficult to do?
    Mr. Chamberlin. Well, I had received the last, and now Ms. 
Preuit's letter specifically stated to take it to ECAB. 
Following that, I had inquired if I had the right to file a 
reconsideration. Specifically, I did not want to go to ECAB 
without the homicidal-suicidal memo as part of the package. 
Included in the letter was for me to contact, if I had any 
questions, a Ms. Stone in Washington, DC, with OWCP. Her 
response was to just follow the appeals rights. She would not 
address if I did have the right to file a reconsideration.
    Following that, I talked with Sheila Williams. She informed 
me that was an interesting question and she would have to do 
research to find out if I would have the right for a 
reconsideration. She informed me that she would be traveling 
the week of, I believe it was November 16th, and that she would 
get back with me, and she had never followed up a return call.
    Mrs. Biggert. So she just thought that was an interesting 
question and that is as far as it went?
    Mr. Chamberlin. Yeah. She did not have the answer if I had 
the right to file a reconsideration.
    Mrs. Biggert. So, has this process been financially 
draining to you?
    Mr. Chamberlin. Well, at the time I was dismissed from the 
FBI I lost my house. My wife had a stroke. We've had four 
different residences since. We have been moving around. We've 
lived in two abandoned farmhouses and just fixed them up.
    I have applied for several hundred jobs, over 60 in the 
State of North Carolina. I have two master's degrees, course 
work completed for a Ph.D., and 25 years of government 
experience and applying for a job of $22,000 and up, and I have 
been unable to obtain full-time, permanent employment.
    Mrs. Biggert. So do you have a source of income?
    Mr. Chamberlin. I have retirement now from the OPM.
    Mrs. Biggert. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Horn. Well, thank you.
    Mrs. Williams was mentioned, and you said she did not get 
back to you. Was she cooperative when she talked on the 
telephone?
    Mr. Chamberlin. Sir, I guess it could be--I wouldn't want 
to make a biased statement to say that she was uncooperative or 
she was passive. She just felt it was an interesting question; 
she would have to do the research.
    And then I still had not had the answer, and I had checked 
with Congressman Price's office and she was very concerned, Ms. 
Gay Eddy, of whether I should file--she was emphasizing to file 
with ECAB because of the 90-day restriction for ECAB. And then 
I had submitted it within the 90-day period, and if that 
wouldn't suffice I was going to go to ECAB.
    When I submitted it, I followed it up with a phone call. 
And Ms. Williams stated, well, we have it; I guess it will go. 
She did not elaborate.
    Mr. Horn. Do you remember what her position was in the 
Department of Labor?
    Mr. Chamberlin. I believe she is the Deputy Director, or 
was the Deputy Director.
    Mr. Horn. For the region or a district or what?
    Mr. Chamberlin. I was under the impression for the entire 
OWCP.
    Mr. Horn. I see. So she is in Washington, not in the field?
    Mr. Chamberlin. Correct.
    Mr. Horn. What was the region that you dealt with on most 
of your activity and claims?
    Mr. Chamberlin. When I initiated the claim, I was told to 
file with Jacksonville, FL; and I began to make the filings 
with Jacksonville, FL. And, unbeknownst to me, as the time 
progressed, this is where they had sent the files to the FBI 
and had returned the packages on two occasions saying they were 
not processing the claim.
    Following that, I submitted the letter to the Secretary of 
Labor, Honorable Robert Reich. And as a result of submitting it 
to him, I'm making the assumption he had forwarded it to the 
Washington, DC, office. I believe it was the security office, 
OL 9. So OL 9 actually processed the claim.
    Mr. Horn. So you were working with the Florida region, I 
assume?
    Mr. Chamberlin. Initially, yes.
    Mr. Horn. But also with the national headquarters?
    Mr. Chamberlin. Yes. Somehow, in other words, in trying to 
get the claim filed initially with OWCP, it was with the 
Jacksonville, FL, office. And then, as a result of the 
Secretary of Labor's actions, it was submitted to Washington, 
DC.
    Mr. Horn. Did the OWCP pursue the missing documents from 
the FBI?
    Mr. Chamberlin. They were not of any assistance at all. 
They specifically told me that they had sufficient documents 
from the FBI and that they had no need to further communicate 
with the FBI nor did the FBI have a need to communicate with 
them.
    Mr. Horn. So they had seen or had held the documents. It is 
just you that didn't see them.
    Mr. Chamberlin. No, they said they never received--or they 
had no acknowledgment. The documents that they had provided me 
under the FOIA, of the documents that were submitted to OWCP by 
the FBI, were very limited, approximately 20 pages.
    Mr. Horn. Ms. McGuinness, what region was it primarily with 
whom you dealt?
    Ms. McGuinness. New York region.
    Mr. Horn. The New York.
    How about you, Mr. Fairbanks? What was your region that was 
helping you on the case?
    Mr. Fairbanks. The Dallas, TX, region.
    Mr. Horn. Dallas, TX, region.
    Well, thank you. Are there any other points you would like 
to make?
    I think you have a very full record here. And we, I might 
say, out of the three of you, we have hundreds of files that 
have been sent to us over the last few months; and some of them 
are just very tragic and similar to some of your cases in terms 
of the lack of, shall we say, proper handling in the sense, I 
don't want to use the word handling particularly, but just that 
people on the government payroll ought to realize that they are 
there to serve the people; the people are not there to serve 
them. And it comes up again and again in office after office 
that we have real problems with in that area.
    I'm glad to hear Mr. Fairbanks had a very positive 
experience. That hasn't been the tenor of a lot of the files 
that have come in from all over the country, and that's what 
started me on this in Long Beach about 3 years ago when I had 
60 people under the Federal injured workers situation. And I 
just went right down the line and I said, tell me your story; 
and I came back filled with 60 stories, most of which either 
the government agency or this program had been less than 
helpful, to put it charitably.
    So I thank you for getting this on the record, and we 
appreciate it, and thank you very much for coming.
    We will now start with panel II, if they will come forward.
    Beth Balen, administrator of the Anchorage Fracture and 
Orthopedic Clinic; John Riordan is first vice-president, 
Council 220 of the American Federation of Government Employees; 
James Linehan is an attorney; and Tina Maggio is field 
representative for the Office of Representative Michael F. 
Doyle.
    If you would stand and raise your right hands, please.
    [Witnesses affirmed.]
    Mr. Horn. The clerk will note all four witnesses have 
affirmed the oath.
    We will begin with Beth Balen. Thank you for coming all 
that distance, Ms. Balen.

STATEMENTS OF BETH BALEN, ADMINISTRATOR, ANCHORAGE FRACTURE AND 
ORTHOPEDIC CLINIC; JOHN RIORDAN, FIRST VICE-PRESIDENT, COUNCIL 
    220, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES; JAMES 
LINEHAN, LAWYER, JAMES R. LINEHAN, P.C.; AND TINA MAGGIO, FIELD 
   REPRESENTATIVE, OFFICE OF REPRESENTATIVE MICHAEL F. DOYLE

    Ms. Balen. Thank you. My name is Beth Balen, and I'm the 
administrator of the Anchorage Fracture and Orthopedic Clinic, 
which is an eight-physician orthopedic group in Anchorage, AK. 
I would like to, I guess, apologize for the length of my 
statement that I submitted. Unfortunately, most of it is 
numbers, so there's a lot of backup documentation there.
    Federal workers' compensation claims, paid through the U.S. 
Department of Labor, have been a long-term problem for our 
clinic and other Alaska providers in general, and these 
difficulties have led many offices in the State to refuse to 
accept USDOL patients.
    Our physicians want to be able to treat sick and injured 
patients, but it's difficult to deal with all the USDOL 
guidelines which, really, the government relationship or the 
government regulations are interfering with the doctor-patient 
relationship. They're sort of getting right smack in the middle 
of it.
    In the past 3 years, our office as well has pretty much 
stopped accepting appointments from USDOL patients due to the 
low reimbursement rates and the amount of staff time involved 
to obtain payment. We will see the patient, but frequently we 
make them self-pay, particularly if a case number has not been 
issued yet, because we don't have time to deal with the 
headaches of billing the USDOL.
    And I would like to stress that this doesn't apply if the 
patient comes to us from the emergency room when we are on 
trauma call for the city, in which case we take any and all 
patients and whatever insurance coverage they may or may not 
have.
    The problems that we experience with U.S. Department of 
Labor patients include, No. 1, the low fee schedule. I have 
included a number of examples in my statement which show the 
actual patient bills for some of our recent USDOL patients, 
starting on page 3 in my statement. I have shown you our 
charge, the amount Alaska Workers' Compensation would have paid 
if it had been State workers' comp, and the amount the USDOL 
actually paid.
    For example, a carpal tunnel release that we charge $1,428 
for, Alaska Workers' Comp actually allows more than we charge. 
They allow $1,733, but the USDOL paid $691. For a laminotomy, 
back surgery, we charge $5,227. Alaska Workers' Comp pays 
$4,608. USDOL paid $2,107. Frequently, it's less than 50 
percent of the charge. We end up writing off considerably more 
than we get paid.
    The second major issue that we have a problem with are the 
forms. The forms that a USDOL patient comes in with are 
lengthy, they are time consuming, and in the amount of time it 
takes a physician to complete his part of the form he could 
have seen another patient. The forms are also redundant, 
because the information that they request is standard in 
medical office visit dictation, which is always attached to the 
claim anyway.
    From 1988 through 1991, our office didn't see any USDOL 
patients, which was following a sting operation engineered by 
the U.S. Department of Labor which targeted Alaska physician 
offices. In 1991, we started seeing these patients again, after 
we worked out an arrangement with the USDOL in Seattle that we 
would bill with our chart notes and our standard forms and not 
use the lengthy forms, which we continue to do today, but we're 
constantly hounded by the patients and their employers that the 
form has to be filled out.
    Another problem is the delay that we have as the patient 
obtains their case numbers. Our experience has shown it takes 
at least 30 to 45 days for a claim number to be issued by the 
USDOL, and there is absolutely no way in the meantime to bill a 
claim to the USDOL without a case number on the bill. It's 
returned immediately to our office saying there's no case 
number on file.
    It doesn't appear that there's any way for the USDOL to 
enter the claim in their computer and wait for a claim number 
to be issued, and it also doesn't appear that they are willing 
or able, one of the two, to put in a patient's name and look 
and see if there's a case number on file. They won't look it 
up.
    Many times we have a claim number, we have it written on 
the bill, and the claim still gets rejected for no claim 
number. It looks to us, although we have no way to prove this, 
that it's possible for a claim number to exist in one part of 
the USDOL's computer but not in another part, namely the claim 
payment portion.
    Frequently, claim numbers are issued without the proper 
medical condition attached to them, then the claim gets denied, 
saying that the billed services are not related to the accepted 
condition. If the claim gets rebilled three or four times with 
no changes made to it, eventually it gets paid because 
something gets updated in the computer. So rebillings are just 
a constant--it is almost a given with the U.S. Department of 
Labor. You do not get paid the first time you submit the bill. 
You have to do it several times.
    There seems to be very poor communication between Federal 
employers and the USDOL, and I question whether this is because 
the employers are not properly instructed in the process or 
whether the process is just so complicated that nobody could 
possibly follow it. And I have given you an example of this 
attached, which almost seems like it belonged in the testimony 
for the first panel, where this employer authorized the claim 
and the USDOL issued paperwork but it took more than 8 months 
from the date of this patient's surgery plus hours of staff 
time to get the claim paid.
    The automated telephone system presents a problem. It's not 
possible to call and speak to a person if you are having 
problems with the claim. You punch numbers, you leave a 
message, the message process that you have to follow to get 
information or leave a message is very long, and you never know 
if you are going to get a call back or not. Although I must say 
that recently we did get a call back on a claim. I don't know 
if that's a fluke or a sign of improvement.
    The time involved to work these accounts in order to 
receive payments has become a serious issue to us, and 
typically the amounts of reimbursement we get is not worth the 
effort.
    The Federal Government is the largest employer in Alaska. 
Many of our friends and relatives work for them. My husband 
works for them. Our doctors want to be able to treat all of the 
sick and injured patients that need it and come to us, but the 
USDOL rules make it virtually impossible to do so. The 
combination of low reimbursements rates, the difficulties we 
have had in obtaining payment, and the past history we've had 
in dealing with USDOL just doesn't make treating USDOL patients 
good business sense. Thank you.
    [The prepared statement of Ms. Balen follows:]

    [GRAPHIC] [TIFF OMITTED]62686.029
    
    [GRAPHIC] [TIFF OMITTED]62686.030
    
    [GRAPHIC] [TIFF OMITTED]62686.031
    
    [GRAPHIC] [TIFF OMITTED]62686.032
    
    [GRAPHIC] [TIFF OMITTED]62686.033
    
    [GRAPHIC] [TIFF OMITTED]62686.034
    
    [GRAPHIC] [TIFF OMITTED]62686.035
    
    [GRAPHIC] [TIFF OMITTED]62686.036
    
    [GRAPHIC] [TIFF OMITTED]62686.037
    
    [GRAPHIC] [TIFF OMITTED]62686.038
    
    [GRAPHIC] [TIFF OMITTED]62686.039
    
    [GRAPHIC] [TIFF OMITTED]62686.040
    
    [GRAPHIC] [TIFF OMITTED]62686.041
    
    [GRAPHIC] [TIFF OMITTED]62686.042
    
    [GRAPHIC] [TIFF OMITTED]62686.043
    
    [GRAPHIC] [TIFF OMITTED]62686.044
    
    [GRAPHIC] [TIFF OMITTED]62686.045
    
    [GRAPHIC] [TIFF OMITTED]62686.046
    
    [GRAPHIC] [TIFF OMITTED]62686.047
    
    [GRAPHIC] [TIFF OMITTED]62686.048
    
    [GRAPHIC] [TIFF OMITTED]62686.049
    
    [GRAPHIC] [TIFF OMITTED]62686.050
    
    [GRAPHIC] [TIFF OMITTED]62686.051
    
    [GRAPHIC] [TIFF OMITTED]62686.052
    
    [GRAPHIC] [TIFF OMITTED]62686.053
    
    [GRAPHIC] [TIFF OMITTED]62686.054
    
    [GRAPHIC] [TIFF OMITTED]62686.055
    
    [GRAPHIC] [TIFF OMITTED]62686.056
    
    [GRAPHIC] [TIFF OMITTED]62686.057
    
    [GRAPHIC] [TIFF OMITTED]62686.058
    
    [GRAPHIC] [TIFF OMITTED]62686.059
    
    [GRAPHIC] [TIFF OMITTED]62686.060
    
    [GRAPHIC] [TIFF OMITTED]62686.061
    
    [GRAPHIC] [TIFF OMITTED]62686.062
    
    [GRAPHIC] [TIFF OMITTED]62686.063
    
    [GRAPHIC] [TIFF OMITTED]62686.064
    
    [GRAPHIC] [TIFF OMITTED]62686.065
    
    [GRAPHIC] [TIFF OMITTED]62686.066
    
    [GRAPHIC] [TIFF OMITTED]62686.067
    
    [GRAPHIC] [TIFF OMITTED]62686.068
    
    [GRAPHIC] [TIFF OMITTED]62686.069
    
    [GRAPHIC] [TIFF OMITTED]62686.070
    
    [GRAPHIC] [TIFF OMITTED]62686.071
    
    [GRAPHIC] [TIFF OMITTED]62686.072
    
    [GRAPHIC] [TIFF OMITTED]62686.073
    
    [GRAPHIC] [TIFF OMITTED]62686.074
    
    [GRAPHIC] [TIFF OMITTED]62686.075
    
    [GRAPHIC] [TIFF OMITTED]62686.076
    
    [GRAPHIC] [TIFF OMITTED]62686.077
    
    [GRAPHIC] [TIFF OMITTED]62686.078
    
    [GRAPHIC] [TIFF OMITTED]62686.079
    
    [GRAPHIC] [TIFF OMITTED]62686.080
    
    [GRAPHIC] [TIFF OMITTED]62686.081
    
    [GRAPHIC] [TIFF OMITTED]62686.082
    
    [GRAPHIC] [TIFF OMITTED]62686.083
    
    [GRAPHIC] [TIFF OMITTED]62686.084
    
    [GRAPHIC] [TIFF OMITTED]62686.085
    
    [GRAPHIC] [TIFF OMITTED]62686.086
    
    [GRAPHIC] [TIFF OMITTED]62686.087
    
    [GRAPHIC] [TIFF OMITTED]62686.088
    
    [GRAPHIC] [TIFF OMITTED]62686.089
    
    [GRAPHIC] [TIFF OMITTED]62686.090
    
    [GRAPHIC] [TIFF OMITTED]62686.091
    
    [GRAPHIC] [TIFF OMITTED]62686.092
    
    [GRAPHIC] [TIFF OMITTED]62686.093
    
    [GRAPHIC] [TIFF OMITTED]62686.094
    
    [GRAPHIC] [TIFF OMITTED]62686.095
    
    [GRAPHIC] [TIFF OMITTED]62686.096
    
    [GRAPHIC] [TIFF OMITTED]62686.097
    
    [GRAPHIC] [TIFF OMITTED]62686.098
    
    [GRAPHIC] [TIFF OMITTED]62686.099
    
    [GRAPHIC] [TIFF OMITTED]62686.100
    
    [GRAPHIC] [TIFF OMITTED]62686.101
    
    [GRAPHIC] [TIFF OMITTED]62686.102
    
    [GRAPHIC] [TIFF OMITTED]62686.103
    
    [GRAPHIC] [TIFF OMITTED]62686.104
    
    [GRAPHIC] [TIFF OMITTED]62686.105
    
    [GRAPHIC] [TIFF OMITTED]62686.106
    
    [GRAPHIC] [TIFF OMITTED]62686.107
    
    [GRAPHIC] [TIFF OMITTED]62686.108
    
    [GRAPHIC] [TIFF OMITTED]62686.109
    
    [GRAPHIC] [TIFF OMITTED]62686.110
    
    [GRAPHIC] [TIFF OMITTED]62686.111
    
    [GRAPHIC] [TIFF OMITTED]62686.112
    
    [GRAPHIC] [TIFF OMITTED]62686.113
    
    [GRAPHIC] [TIFF OMITTED]62686.114
    
    [GRAPHIC] [TIFF OMITTED]62686.115
    
    [GRAPHIC] [TIFF OMITTED]62686.116
    
    [GRAPHIC] [TIFF OMITTED]62686.117
    
    [GRAPHIC] [TIFF OMITTED]62686.118
    
    [GRAPHIC] [TIFF OMITTED]62686.119
    
    [GRAPHIC] [TIFF OMITTED]62686.120
    
    [GRAPHIC] [TIFF OMITTED]62686.121
    
    [GRAPHIC] [TIFF OMITTED]62686.122
    
    [GRAPHIC] [TIFF OMITTED]62686.123
    
    [GRAPHIC] [TIFF OMITTED]62686.124
    
    [GRAPHIC] [TIFF OMITTED]62686.125
    
    [GRAPHIC] [TIFF OMITTED]62686.126
    
    [GRAPHIC] [TIFF OMITTED]62686.127
    
    [GRAPHIC] [TIFF OMITTED]62686.128
    
    [GRAPHIC] [TIFF OMITTED]62686.129
    
    [GRAPHIC] [TIFF OMITTED]62686.130
    
    [GRAPHIC] [TIFF OMITTED]62686.131
    
    [GRAPHIC] [TIFF OMITTED]62686.132
    
    [GRAPHIC] [TIFF OMITTED]62686.133
    
    [GRAPHIC] [TIFF OMITTED]62686.134
    
    [GRAPHIC] [TIFF OMITTED]62686.135
    
    [GRAPHIC] [TIFF OMITTED]62686.136
    
    [GRAPHIC] [TIFF OMITTED]62686.137
    
    [GRAPHIC] [TIFF OMITTED]62686.138
    
    [GRAPHIC] [TIFF OMITTED]62686.139
    
    [GRAPHIC] [TIFF OMITTED]62686.140
    
    Mr. Horn. Let me just question you on one point. I want to 
make sure I understand on the chart, the write-off. Is that 
essentially your agency's write-off on it?
    Ms. Balen. That's the amount that we have to write off, 
because you cannot bill Federal worker for the difference in 
what the USDOL pays and what our charges are. So, yes.
    Mr. Horn. That mounts up to quite a bit. Of these 
particular operations you note here, was there ever any attempt 
to get the agency to change the fee, particularly based on the 
cost of living in Alaska, which is probably the highest in the 
United States, isn't it?
    Ms. Balen. Pretty close.
    Mr. Horn. If not the State of Washington. The two of them 
usually have been the highest cost of living.
    So have they ever adjusted their fees based on concerns 
from you?
    Ms. Balen. They have never adjusted the fees, to my 
knowledge. We have tried appealing, and in fact we appeal to 
commercial insurances periodically using some of the 
documentation that I have attached in my statement. An appeal 
to the USDOL is typically a waste of time, though. The only 
response we get is that's their fee schedules and that's it.
    Mr. Horn. Well, I thank you. That's a very helpful document 
and series.
    And we will now move to Mr. John Riordan, first vice 
president, Council 220, American Federation of Government 
Employees.
    Mr. Riordan. Mr. Chairman and members of subcommittee.
    Thank you for this opportunity to address the topic of 
customer service at the Office of Workers' Compensation 
Programs by the Department of Labor.
    My name is John Riordan. I am first vice president of the 
American Federation of Government Employees, AFL-CIO, Council 
220 which represents approximately 25,000 Social Security 
employees in field offices throughout the country. I have been 
employed by the Social Security Administration for over 25 
years. And as a union official, I have represented many SSA 
employees that have been injured on the job and who have 
applied for workers' compensation.
    I am currently representing four employees. None of these 
employees are receiving compensation benefits at present, 
although they applied for benefits many months ago. I encounter 
difficulties contacting agents because of the voice mail 
system. You are no longer able to speak with an agent. Instead 
I have to leave voice recorded messages. When I receive no 
response, I have to write to them even though I work in the 
same building, 201 Varick Street, New York City, where they are 
located.
    They imposed a policy restricting visitors to their offices 
a couple of years ago. I want to recount briefly an incident 
which occurred on September 16, 1996, when I accompanied a 
customer who wanted to deliver some documents to the OWCP 
office at 201 Varick Street. The customer who I accompanied is 
Dianne McGuinness who testified earlier before the 
subcommittee.
    Ms. Diane McGuinness came to my office and reviewed some of 
the documents she wanted to submit to OWCP. Ms. McGuinness 
wanted to deliver her appeal of the denial of the continuation 
of her workers' compensation benefits. I was, at that time, 
president of AFG Local 3369 which represents Social Security 
field office employees in New York City, Long Island, and 
Westchester County. We took the elevator from the 11th floor to 
the 7th floor where OWCP is located. The door to the office was 
locked and there was no mail slot.
    While searching for a place to deliver the appeal, a man 
appeared at the end of a long corridor and started shouting. I 
tried to ignore him, but Ms. McGuinness said to me that he was 
shouting at us. As the man approached he was still shouting, 
indeed it was directed toward us.
    We attempted to explain to him why we were there, but he 
didn't stop talking so he could hear our response. He told us 
to leave the building immediately. He said we had to have an 
appointment to be there. I told him that I had called to make 
an appointment earlier, but no one responded to our calls. Ms. 
McGuinness and I told him that we were Federal employees. The 
man responded that he didn't care whether or not we were 
Federal employees and that he would call the security guards to 
remove us if we did not leave.
    Ms. McGuinness had made an appointment through the 
Senator's office to deliver the appeal, but she was not able to 
tell the man this because he would not let her talk. The man 
was visibly upset and disturbed by our presence. Ms. McGuinness 
asked him if he were Mr. Kenneth Hamlett, the New York Regional 
Director OWCP, and he said he was. Ms. McGuinness introduced 
herself to him and Mr. Hamlett replied, ``Oh, Ms. McGuinness, 
we're going to get you back to work real soon.''
    I introduced myself to Mr. Hamlett. I told him that I 
worked in the building and was not told that the 7th floor was 
restricted. We asked Mr. Hamlett to accept the appeal and he 
took it. When Ms. McGuinness asked him to sign a receipt, he 
did, I was shocked to learn that the man shouting at us was the 
OWCP Regional Director.
    Two days later, September 18, 1996, Mr. Hamlett called me 
at my office to hold a conference call with Ms. McGuinness. Mr. 
Hamlett told us that Jonathan Lawrence, District Director, 
Kevin Kates, senior claims examiner, and another claims 
examiner were on the call with him. However, only Mr. Hamlett 
spoke during the conversation. Mr. Hamlett angrily stated that 
his staff was presently engaged in responding to Congressman 
Ackerman and others concerning Diane McGuinness. He accused Ms. 
McGuinness of calling all over the country. Mr. Hamlett said he 
had heard from his head office about her calls.
    Ms. McGuinness asked him if she could see her file and Mr. 
Hamlett responded that he would furnish her the part of the 
file she does not have already via mail. However, Mr. Hamlett 
said she would not be permitted to visit the office to review 
her file by going to room 740. Mr. Hamlett said that Ms. 
McGuinness would be referred to a referee for a decision on her 
disability. He said he came to his decision without the use of 
the appeal Ms. McGuinness had presented to him September 16. He 
said that Ms. McGuinness' appeal was not right.
    Ms. McGuinness asked him about her physical therapy being 
disallowed, and Mr. Hamlett said he made the decision based on 
medical evidence. I asked him to continue the physical therapy 
at least until OWCP makes a decision on her pending disability 
and he said no. I did not understand his reasoning to stop the 
physical therapy prior to the decision of the referee. Even the 
second opinion doctors had recommended that she be provided 
with physical therapy for at least 12 weeks.
    Mr. Hamlett replied that she was injured too long ago to 
benefit from physical therapy. It was only effective early in 
the injury, he contended. I said that his decision was 
inconsistent with the medical evidence and that the physical 
therapy should be supported until there is a decision on the 
disability. Mr. Hamlett said no.
    Ms. McGuinness asked if she could participate in the 
selection process of the referee. Mr. Hamlett said he selected 
the referee and that Ms. McGuinness can have no participation 
in the selection process. Ms. McGuinness protested stating that 
regulations permit her to participate in the selection process. 
Mr. Hamlett said, no, they don't.
    Mr. Hamlett stated that he had alerted the building 
management that anyone found on the 7th floor without an 
appointment with his office would be escorted out of the 
building.
    During the entire conversation, Mr. Hamlett spoke in an 
angry and loud tone of voice. Ms. McGuinness asked him not to 
shout. Mr. Hamlett maintained his angry and loud tone 
throughout our conversation.
    Mr. Hamlett concluded the call by stating that he would 
send Ms. McGuinness her file from June 21, 1996, to the 
present, that is the part of the file she did not already have.
    I also want to make a comment on two other issues that are 
serious drawbacks in dealing with the OWCP for employees I have 
represented. The first is that it takes too long to receive 
payment after filing a claim after having submitted complete 
and necessary medical evidence.
    The earliest case which I have handled as representative 
was paid in about 3 months. But the norm for the cases I have 
handled is at least 6 months or even much longer. Employees 
encounter severe hardship waiting to be placed in payment 
status. Often there are delays because the wrong forms or 
obsolete forms were completed or because employees were not 
given the correct forms in the first place by their agency.
    For example, I have had many problems with the Social 
Security Administration personnel office who take an inordinate 
amount of time to process and to send the employee's workers' 
compensation claim to OWCP.
    The second issue which I mentioned earlier is the inability 
to reach anyone at OWCP. The voice mail system is frustrating 
and often does not work. More often than not there is no call 
back after leaving a message. There is insufficient staff to 
process the workload, and employees seem to have become numb by 
the backlog of cases they are not able to get to.
    I strongly recommend that you support funding the agency 
for more personnel to improve customer service and to clear the 
backlog of cases.
    I just want to mention the status of three cases that I am 
currently handling. Case A is an employee with carpal tunnel 
syndrome injury. He filed a claim for his injury, and it was 
approved. He later returned to work and asked for some 
accommodation so that he could perform the job without 
incurring injury.
    Social Security Administration denied him the requested 
accommodation. He had to stop working again due to the pain of 
the carpal tunnel and tendonitis injuries. He filed for 
compensation November 17, 1998. He has submitted all required 
medical evidence, but he is still awaiting approval of his 
claim and payment.
    Case B is an employee who had stress-related injury, and 
she left work in September 1997. She returned to work in June 
1998 and continues to work on the job. Her claim was approved 
by OWCP, but she still is awaiting payment for that period.
    Case C is an employee who was receiving compensation for an 
injury she received in a fall while working. OWCP pressured her 
to return to work 1 day a week. She did so, but, due to pain, 
was unable to show up for the 1-day a week on most occasions. 
She again filed for full compensation and OWCP not only denied 
that, they decided to deny her entire compensation. Because the 
employee could not return to work, she filed for disability 
retirement under Office of Personnel Management.
    I represented her before the Merit Systems Protection Board 
and it was settled with her claim approved. We appealed her 
denial to workers' compensation and was recently reversed on 
appeal and awarded retroactively. This award covers the part-
time claim, not the full-time claim she filed. She is still 
awaiting a payment. She continues to receive disability 
retirement benefits while awaiting workers' compensation.
    Mr. Horn. That's very helpful and we're going to pursue 
some of the questions you've raised with the administration 
when they testify. Thank you for bringing those points out.
    [The prepared statement of Mr. Riordan follows:]

    [GRAPHIC] [TIFF OMITTED]62686.141
    
    [GRAPHIC] [TIFF OMITTED]62686.142
    
    [GRAPHIC] [TIFF OMITTED]62686.143
    
    [GRAPHIC] [TIFF OMITTED]62686.144
    
    Mr. Horn. James Linehan is an attorney. And please identify 
where. And proceed with your testimony.
    Mr. Linehan. Thank you, Mr. Chairman, for the opportunity 
to be here. My name is James Linehan, Jim Linehan out of 
Oklahoma City area. I am an attorney, solo practitioner. I 
represent disabled claimants before FECA, OWCP, Merit Systems 
Protection Board, Social Security Administration, and Federal 
courts.
    Basically I have submitted a statement. The statement is 
out there. I'm not going to read through it, but I will break 
it down for you. I find it rather incredible that in this 
current city I have never been here before but I understand 
this to be a city of attorneys. There is 1\1/2\ million 
attorneys in the United States, I know of three or four, 
including myself, who will be willing to take on these claims, 
these OWCP claims. I find it incredible that out of all of this 
city you have to find an attorney in Oklahoma to come up and 
speak on these claims. I think that speaks loudly for itself.
    I also find it not unusual with the testimony that's just 
been entered about the medical treatment status. Presently in 
Oklahoma, I know of only one to three neurosurgeons, orthopedic 
surgeons, et cetera, who will treat or take on Federal workers' 
compensation cases. That's a couple of weeks ago. I do not 
think they will take them on anymore.
    That leaves no physicians I know of in the State of 
Oklahoma who will take on these claims. I know of no attorney 
in the State of Oklahoma beside myself who will represent these 
claims. The reason why, other than these are bureaucratic 
nightmares, I have broken down further. There's two general 
issues. In my opinion, the main issue is nonaccountability. The 
OWCP, in my opinion, is a self-regulating, self-governing 
agency that answers by law to no court of law. It has, thus, no 
incentive to answer to anyone. It has no incentive to handle 
these cases in the claimant's best interest.
    I have broken this down in the statement, but in general 
the nonaccountability of Fed Comp OWCP is what leads to no 
attorney representation. Essentially there's nothing for an 
attorney to do. And how do I handle claims? Basically--and 
attorneys tell me never to tell this, but I tell it all the 
time any way--people pay me money to tell a government 
bureaucrat to do what they're supposed to do in the first 
place. That's what it boils down to.
    As a result of nonaccountability, there's a distinct lack 
of medical treatment. In my opinion, as a result of this 
nonaccountability and its effect on medical treatment there's 
millions upon millions of dollars being diverted from OWCP to 
private sector insurers to cover them.
    How does this work? In a typical back case that I see, 
$150,000 is spent for operative physical therapy because of the 
bureaucratic nightmare the claimants and doctors have to go 
through. They have to wait months on end to get medical 
treatment authorized, yet the claimant needs the surgery now. 
Their doctor says they cannot wait months. The claimant and I 
need something. There is no response from OWCP.
    Very easy. The claimant and doctor turn it over to private 
insurance. Private insurance carries it. They never know it's 
Fed Comp. I see this 20, 30, 40, 50 times a year. Multiply it 
out, $100,000 per claim, it's very easy math. This is in 
Oklahoma alone.
    I get calls from Hawaii to New York to Florida to Alaska to 
handle these claims. I see this constantly. Can I prove how 
much money is being diverted? No. You would have to go to the 
medical establishment. I just say this is what I see.
    The nonaccountability of the OWCP basically results from 
the fact that it answers to no court of law. What does this 
mean? This means the OWCP--and I'm always referring to OWCP--
can knowingly and freely act in any manner it wants to with the 
claimants. This is what you're hearing testimony before about. 
This is what you're hearing testimony today about. There is no 
incentive for the OWCP to respond to a claimant. There is 
nothing the claimant can do in response. The OWCP can act as it 
wants.
    In the typical OWCP claim, the claimant is under guidelines 
to respond, submit forms this, forms that, within 30 days, 10 
days here, et cetera, if you don't, Mr. Claimant, your job will 
be terminated. You will lose benefits, et cetera.
    These are real life happenings. They lose benefits, they 
lose their home, they lose their car, they can't feed kids. In 
return, the OWCP is under absolutely no guidelines whatsoever 
to respond in any timely manner. The claimant has to respond. 
The OWCP never has to respond. That's why you see comment after 
comment, no return phone calls, no response to filings, et 
cetera.
    The other thing in addition to nonaccountability I have 
outlined is unilateral control. As a result of unilateral 
control that the OWCP has over these claims, I gave two 
examples. One is the attending physician rule. Federal courts 
across this country, the Social Security Administration, et 
cetera, all recognize the attending physician rule.
    I have put it in my statement. Basically, what this means 
is that the claimant's qualified medical attending physician 
prevails over the reports of a hired, paid consultant of the 
agency. Speaks common sense. The qualified medical practitioner 
for the claimant knows him, has treated him for years, et 
cetera.
    The agency is a paid doctor, may not ever examine the 
claimant, may only look briefly at reports, if at all, or may 
examine the claimant, from what I see and as testimony this 
morning reflected, 5 to 10 minutes. That's normal.
    In OWCP land, the attending physician rule is the exact 
opposite. If there's a contest between medical reports, the 
paid non-examining, barely examining report of the OWCP doctor 
prevails over the attending physician. Thus another incentive 
for medical practitioners not to take these claims. They can't 
get treatment authorized. They are subversive to whoever OWCP 
can shop around and find, $250 to pay for a report to say what 
they want. This is how it works in real life. I see this daily.
    The other example of unilateral control that I see--and 
this is a killer clause I call it, Section 8128(a)(1) of the 
OWCP. This is a simple clause and it's a quite deadly clause 
for Federal employees. This basically means that the Secretary 
of Labor--under this clause if a Federal employee can succeed 
in gaining benefits on his or her claim, can gain a scheduled 
award, whatever she or he gets, under Section 8128 the killer 
clause, the Secretary of Labor or his or her designee, anybody 
down the road, down to the claims examiner level, can on own 
motion, without notice, without hearing, anything, simply take 
the award, take the benefits back, demand repayment. There is 
no time limit on this. There is--it's--I just simply call it 
the killer clause.
    If a claimant is successful, if they didn't tick the OWCP 
off enough, they may get to keep their claim. However, in 
they're successful, and they tick the OWCP off, and 8128 can 
come back in and say simply hand the money back. That's it. 
There is no right of review.
    As a result of this what I see daily in these claims, I 
have one recommendation that will solve a lot of problems. 
These are not second-class citizens. This Congress looked at VA 
claims back in 1998. It was the same setup. VA acted 
unilaterally without control over veterans benefits for years. 
Couldn't get attorney representation. I think the old law was 
$25 for an attorney.
    In 1988, this Congress came in and said enough of this. 
Veterans needs to be recognized as full citizens with full 
rights. They created the Court of Veterans Appeals. Veterans 
now get the right to have Federal court review their claims. 
They have attorneys now.
    The lower administration, the Veterans Administration can 
no longer deny claims randomly, can no longer deny due process. 
They have to give hearings. They have to provide reports in a 
timely manner. They have to act according to Federal court 
rules.
    This is what needs to be done for the OWCP. These people 
are not second-class citizens. They need the right, they 
deserve the right to have Federal court review.
    Whether or not they should have their own Federal court, I 
leave this up to Congress. I know you're going to get into the 
budget, et cetera, I'm not concerned with that. My concern is 
only that somehow there be Federal court review. We could use 
the present system.
    You don't need the ECAB system anymore. If you're saving 
money, take it away. It's a useless appeal. It goes nowhere. 
They can have their administrative hearing at the lower level, 
file the claim, the administrative hearing, much as in Social 
Security, if it's denied there, file a claim in Federal court. 
It's very simple.
    If the Federal court then sees that the OWCP is not 
following due process rules regarding notice, production of 
documents, everything else you hear constantly in these claims, 
it's very simple: Sanctions. A Federal court will start 
stomping on the toes that need to be stomped on. That's what it 
boils down to. Until then, in my frank opinion, nothing will 
change. This will go on. That is my recommendation.
    I'm open for questions at any time.
    Mr. Horn. I never thought I would hear a lawyer's statement 
that I agreed with, so I'm glad you came, because you're the 
exception to my rule. I mean, that's a brilliant statement and 
I really appreciate it.
    Mr. Linehan. Thank you.
    [The prepared statement of Mr. Linehan follows:]

    [GRAPHIC] [TIFF OMITTED]62686.145
    
    [GRAPHIC] [TIFF OMITTED]62686.146
    
    [GRAPHIC] [TIFF OMITTED]62686.147
    
    [GRAPHIC] [TIFF OMITTED]62686.148
    
    [GRAPHIC] [TIFF OMITTED]62686.149
    
    [GRAPHIC] [TIFF OMITTED]62686.150
    
    Mr. Horn. Our last one on this panel is Tina Maggio, and 
she is the field representative for a respected Member of this 
body, Representative Michael F. Doyle.
    Ms. Maggio. Thank you Chairman Hornman--Horn. Sorry. I'm 
nervous. Thank you, Chairman Horn for allowing me this 
opportunity.
    I have been working for Representative Mike Doyle's 
district office as field representative for 3 years. As part of 
my responsibilities, I assist constituents with problems with 
OWCP as well as the Social Security Administration, the U.S. 
Postal Service, Medicare, and the Office of Personnel 
Management.
    For OWCP cases, a majority of my contact is with the 
Philadelphia District Office. In looking over the history of my 
case work, I have handled approximately 30 to 35 cases.
    Since each individual case is different and varies in 
complexity, I do not believe it would be fair for me to make a 
generalized statement regarding the responsiveness of OWCP to 
congressional calls or correspondence.
    Therefore, I would like to discuss my constituent casework 
in which I deal with the Philadelphia District Office. In my 
written statement, I outline three case examples in detail 
which provide a broader understanding of my correspondence with 
the OWCP.
    The first example is--I first spoke with this individual on 
March 8, 1999. He has an approved medical claim through OWCP 
and has been waiting for a prescription reimbursement since May 
1998. He was referred to seek assistance from Representative 
Doyle by his injury compensation specialist at the Postal 
Service because neither she, the drugstore, nor this 
constituent could get a response from the claims examiner.
    The constituent told me that he was reducing the amount of 
his medication because he could no longer afford to pay for the 
prescription without getting reimbursed. On March 8, 10, and 
16, I contacted the Philadelphia District Office and left a 
message for his claims examiner. On March 17, I faxed a letter 
to the District Director's office regarding this matter. On 
March 25, I called the Philadelphia District Office and spoke 
with the assistant in the District Director's office. I told 
her that I had left numerous messages for the claims examiner 
to call me back, but I had not yet heard from him. She told me 
that all congressional calls are supposed to be answered within 
1 day.
    She put me through to the supervisory claims examiner's 
voice mail, and I left a message.
    On March 26, I called and left another message for both the 
claims examiner and the supervisory claims examiner. On March 
29, I finally received a call from the constituent's claims 
examiner. This was 3 weeks from when I had initially contacted 
OWCP.
    At this point, I asked him if he had received any of my 
messages. He told me the only message he received was from the 
supervisory claims examiner to give me a call back. Once the 
claims examiner did call me back, he explained what this 
individual needed to do to resolve his prescription 
reimbursement problem and everything was taken care of.
    The next case I would like to discuss is outlined in my 
written statement pertaining to the determination of benefits.
    I would like to submit the following pertinent 
documentation for the record: First, a letter that the 
individual received from the District Director dated October 
29, 1998, in which the District Director states that all phone 
and written inquiries received from Congressman Doyle's office 
are promptly answered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.151
    
    [GRAPHIC] [TIFF OMITTED]62686.152
    
    [GRAPHIC] [TIFF OMITTED]62686.153
    
    Ms. Maggio. However, what this letter does not state is the 
number of phone messages that were left before my phone calls 
were actually returned, nor does it state that the written 
responses did not address the issues clearly specified in 
Representative Doyle's letters.
    In addition, I would also like to submit the letter sent to 
the District Director dated August 4, 1998; the response from 
the District Director dated August 25, 1998; the letter sent to 
the District Director dated September 29--or September 9, 1998; 
and the questions faxed to the District Director on September 
29, 1998, after the individual's benefits were terminated.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.154
    
    [GRAPHIC] [TIFF OMITTED]62686.155
    
    [GRAPHIC] [TIFF OMITTED]62686.156
    
    [GRAPHIC] [TIFF OMITTED]62686.157
    
    [GRAPHIC] [TIFF OMITTED]62686.158
    
    [GRAPHIC] [TIFF OMITTED]62686.159
    
    [GRAPHIC] [TIFF OMITTED]62686.160
    
    [GRAPHIC] [TIFF OMITTED]62686.161
    
    [GRAPHIC] [TIFF OMITTED]62686.162
    
    Ms. Maggio. These documentations will demonstrate and 
provide insight into the attempts made to supply OWCP with the 
correct and factual information.
    From these examples, I hope I have clearly demonstrated 
some of the problems I experienced in assisting constituents 
with their claims. To summarize, I often have problems getting 
my phone calls returned for constituent matters that are 
urgent. In addition, the response letters that I receive 
usually do not answer the specific questions and issues 
addressed in Representative Doyle's correspondence.
    During my 3 years working for Representative Doyle, I have 
come to realize that most people go to their Congressman for 
assistance when they have exhausted all avenues on their own in 
trying to resolve their problems. When they come to the office, 
they are frustrated because they cannot get a response from 
their claims examiner regarding their specific questions.
    Congressional casework entails getting those answers for 
those constituents. I feel that I am, at times, inhibited in 
this duty because of the lack of responsiveness and cooperation 
from OWCP. Most constituents want their Congressman's 
assistance in guaranteeing that they are getting a fair and 
equitable determination as well as getting the benefits for 
which they are entitled.
    When I contact the district office, this is exactly what 
I'm trying to ensure. As a congressional caseworker, I'm here 
to help people either resolve their problems or answer their 
questions regarding OWCP. However, I am only one half of the 
whole in assisting a constituent. To do my job effectively, I 
need to be able to communicate with the responsive agency to 
ensure that the constituent is being treated in a fair manner.
    Again, thank you for allowing me this opportunity, and I'll 
be happy to answer any questions.
    [The prepared statement of Ms. Maggio follows:]

    [GRAPHIC] [TIFF OMITTED]62686.163
    
    [GRAPHIC] [TIFF OMITTED]62686.164
    
    [GRAPHIC] [TIFF OMITTED]62686.165
    
    [GRAPHIC] [TIFF OMITTED]62686.166
    
    [GRAPHIC] [TIFF OMITTED]62686.167
    
    [GRAPHIC] [TIFF OMITTED]62686.168
    
    [GRAPHIC] [TIFF OMITTED]62686.169
    
    [GRAPHIC] [TIFF OMITTED]62686.170
    
    Mr. Horn. Let me just ask one here. You handle other than 
cases such as this. You probably have Social Security cases, 
Medicare cases, Internal Revenue cases, Immigration cases.
    Ms. Maggio. Right.
    Mr. Horn. As you look at all of those agencies with which 
you connect on behalf of Representative Doyle, which is the 
most responsive and which is the least responsive?
    Ms. Maggio. The most responsive is Social Security 
Administration. They have a congressional office in Baltimore 
that is very responsive. The least responsive is OWCP in 
Philadelphia.
    Mr. Horn. I thought that would be your answer. Without 
question, I served on the Senate staff in the early 1960's. 
Then and now, I think most of us say the best run organization 
in the U.S. Government is the Social Security Administration.
    I had an interesting experience when I came back from a 
long day of committee hearings about a month ago, I saw a fax 
from an attorney in Long Beach, CA, where Social Security 
hadn't come through on the check that they admitted he knew. 
So, even good agencies make their mistakes.
    So, I wrote out a fax to the Commissioner in Baltimore and 
within 18 hours he had a response back to me. The check was out 
there, and he apologized on the behalf of the agency for the 
stupidity of one of his members. That's a very responsive 
operation. So thank you for adding that to our record.
    I'm now going to have the vice chairman do the questioning, 
Mrs. Biggert of Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Ms. Balen, you talked about the time it takes to get a case 
number. Is it--what does it entail to get a case number? Isn't 
it just an assignment of a number?
    Ms. Balen. I don't know.
    We're really not in on that part of the process. All we 
know is either the patient comes to us with a new injury that 
is--they say is workers' comp, and they work for the Federal 
Government and we know they have these forms. There's one 
particular form that we do fill out, I think it's the CA-16 
that, according to my information, is the form that is required 
to initiate the process for getting a case number.
    What has to happen beyond that point, I really don't know. 
I just know it kind of takes a long time. Eventually the 
patient is issued--we've had them come in with a little card 
with their case number on it. If we have treated the patient 
without a case number and we're waiting, holding the bill, 
sometimes the patients don't realize that as soon as they get 
that little card with the case number, that they need to give 
it to us. I don't know if it's not stressed to them, that you 
need to go give that to everybody who has helped you with this. 
I don't know what process they're having to go through.
    Mrs. Biggert. Mr. Linehan said that many times since they 
can't get a response from OWCP that they have gone to the 
private insurance. Do you find that happening?
    Ms. Balen. We typically have not done that because what we 
find, at least in my office, all insurances want to know how 
the injury happened and where you were. And as soon as you say 
it happened at work, they won't touch it. I think that's a good 
idea if it would work. We haven't found that it really works.
    Typically what we've done if we have a patient who is like 
the one in my example in my statement, we usually just go ahead 
and do the surgery and try to get the authorization later which 
means the patient ends up getting helped, but we end up holding 
the bag.
    Mrs. Biggert. Since you've had to--the amount of money is 
so much lower than other--is it lower than what was paid out in 
the State for workers' comp?
    Ms. Balen. Oh, far lower. Yes, I've got that in my 
statement. Typically the State Worker's Comp allows more than 
what we charge, which is kind of backward. But, yes, the USDOL 
typically pays less than half of our charge, and the State 
Worker's Comp allows more than we charge. So it's a 
considerable difference.
    Mrs. Biggert. So you just have to write that off.
    Ms. Balen. Yes.
    Mrs. Biggert. OK. Mr. Riordan, do you find problems with 
the numbers also?
    Mr. Riordan. Well, the number is assigned once a case 
worker looks at a case. I mean, there is a delay. And if you 
call before you're assigned a case number, they can't help you, 
they won't help you. You have to have the case number. So you 
just have to sit and wait until it's looked at.
    Mrs. Biggert. Do you find that some people will go through 
private insurance rather than the workers' comp, or do you find 
the same thing that Ms. Balen said?
    Mr. Riordan. Yeah, I don't think they're covered by--if 
they're injured at work, they have to file for workers' comp.
    Mrs. Biggert. OK. Mr. Linehan, why is it that there's so 
few lawyers that are willing--I'm a lawyer also and I've never 
done a workers' comp case, but why are there so few that are 
willing to take these cases?
    Mr. Linehan. A carpenter needs tools to work. An attorney 
needs a court to work in. There's no court. There is nothing 
really for an attorney to work with.
    Basically, I push the claim. I help--claimants come into me 
after they have grown so frustrated with the system, they 
basically come in to me, throw a file down on my desk that 
averages a foot thick and say, ``Take it and run with it. We 
don't want to mess with it. We'll pay you whatever it takes to 
handle this. Just do something to get this moving.''
    That's where I enter the picture. I don't enter the picture 
at the beginning of the claim. The claimant is hurt and they 
come to me rarely, if ever.
    Mrs. Biggert. Are there States that you know of that have 
some access to the courts from workers' comp cases?
    Mr. Horn. Can we move the mic a little closer to each of 
you. It's a little difficult to hear.
    Mr. Linehan. I don't understand your--you mean State comp?
    Mrs. Biggert. Well, since there's no Federal process to get 
into court, are there State courts that take appeals from 
workers' comp?
    Mr. Linehan. Federal OWCP?
    Mrs. Biggert. No, from State.
    Mr. Linehan. Oh, every State.
    Mrs. Biggert. Every State?
    Mr. Linehan. Yeah. Oklahoma, you have the Oklahoma OWCP 
system, it's appealable to the State Supreme Court up through 
the circuit courts, et cetera.
    Mrs. Biggert. Do you know of any reason why this hasn't 
happened on the Federal level?
    Mr. Linehan. I'm not going to comment, but yeah. It's 
just--you've got a system that works as it is now for the 
system. It doesn't work for the claimants. From what I see, 
claimants who come in are scared to death. They don't want to 
buck the system. They don't want it to be known that they're 
bucking the system.
    So the system continues, it grows on itself. And that's 
what's happened here. Nobody is bucking the system. They're 
scared. Maybe that's why I'm here. But something needs to 
change. And the only change I could see that needs to be done 
that will really work--that will end a lot of these problems 
overnight--is allowance for Federal court review.
    And I don't know of any reason why these civilians should 
be treated any differently from any other injured, diseased or 
killed civilian in America. But they are. They are. They have 
no rights. Zero.
    Why is that? That is a question that goes back to the 
Congress.
    Mrs. Biggert. Thank you.
    Ms. Maggio, have you had complaints about second opinions 
or doctors? Is that----
    Ms. Maggio. Yes. I have a long, involved case. It's 
actually the case example, the termination of benefits in my 
written statement. His second opinion exam was about 15 minutes 
long. The doctor was supposed to be examining his left ankle, I 
believe it was his left. He was examining the right ankle.
    And he was also examining another injury that he had--
another work-related injury that he wasn't supposed to be 
examining. And he sent him for x-rays for the wrong ankle, the 
wrong knee. And the OWCP based terminating his benefits on it--
they put the weight of the evidence in that doctor's 
assessment.
    Mrs. Biggert. Fortunately they weren't doing surgery.
    Ms. Maggio. Right. Right.
    Mrs. Biggert. In a second opinion, is it usually the same 
doctor over and over again in the area that would be giving the 
second opinion?
    Ms. Maggio. You mean many constituents going to the same 
second opinion?
    Mrs. Biggert. Yes.
    Ms. Maggio. I have seen a couple of the same doctors' names 
popping up with different constituents who come to the office. 
I don't know how often--I was told that it's a revolving 
process where it's kind of they draw a name and they send the 
constituent to that doctor.
    But I'm not sure how often they go to the same one.
    Mrs. Biggert. Do you sense, then, that their decisions are 
predetermined?
    Ms. Maggio. Yes, I get that feeling. And I believe that--I 
have one constituent who knows the FECA manual front and back, 
and luckily--because he knows what his rights are. But I think 
that at times OWCP tries to send these individuals to doctors, 
especially for a referee exam, you cannot go to a fitness-for-
duty doctor for the employing agency.
    And I think a lot of claimants are going to doctors who are 
also working for their employing agency, which is a problem. 
There is a conflict of interest there.
    Mrs. Biggert. I know that in so many States the second 
opinion is the choice of the injured worker and there has been 
some movement to change that; to have the employers have the 
opportunity to choose the second doctor. So you don't think 
that would be a good idea on the Federal level?
    Ms. Maggio. No. No.
    In my opinion, I deal a lot with postal workers who are 
injured. And I think there's a rush to get people back to work. 
And I think that if the employer was able to choose the doctor, 
the second opinion doctor, that might have some influence on 
the decision of the doctor. It's just my opinion, but I think 
it would be best if it was an outside source.
    Mrs. Biggert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    Is there any additional point you feel has not been made 
that you would like to make? This is the last call on that.
    Ms. Balen.
    Mr. Riordan.
    Mr. Riordan. Well, one earlier question Congresswoman 
Biggert asked was why is there a delay in processing, asked one 
of the earlier people that testified, why is there a delay.
    Well, one of the reasons is the agency has an interest in 
keeping the employee off workers' comp because the agency has 
to cover the position for a full year. So they want the 
employee back to work because that position is open. And their 
statistics count against that employee for production purposes. 
So they want to pressure the employee to come back to work.
    That's why the personnel offices have delays, you know, 
delays in processing and filling out the forms and completing 
them and sending them to OWCP. That's part of it, any way.
    Mr. Horn. Mr. Linehan, anything else you want to say?
    Mr. Linehan. No. I appreciate the opportunity to be here. 
And if you have any further questions of me, I would be happy 
to answer them.
    Mr. Horn. Well, if something comes to mind, if you don't 
mind we'll do what we do with every other hearing, send you the 
question and at this point in the record, we'll give the 
question and your answer.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.171
    
    [GRAPHIC] [TIFF OMITTED]62686.172
    
    [GRAPHIC] [TIFF OMITTED]62686.173
    
    [GRAPHIC] [TIFF OMITTED]62686.174
    
    [GRAPHIC] [TIFF OMITTED]62686.175
    
    [GRAPHIC] [TIFF OMITTED]62686.176
    
    [GRAPHIC] [TIFF OMITTED]62686.177
    
    [GRAPHIC] [TIFF OMITTED]62686.178
    
    [GRAPHIC] [TIFF OMITTED]62686.179
    
    [GRAPHIC] [TIFF OMITTED]62686.180
    
    [GRAPHIC] [TIFF OMITTED]62686.181
    
    [GRAPHIC] [TIFF OMITTED]62686.182
    
    [GRAPHIC] [TIFF OMITTED]62686.183
    
    [GRAPHIC] [TIFF OMITTED]62686.184
    
    [GRAPHIC] [TIFF OMITTED]62686.185
    
    Mr. Horn. So Ms. Maggio, what would you like to add?
    Ms. Maggio. I want to state that a lot of the other 
agencies have congressional offices that have a staff who 
handle congressional calls only.
    And OWCP in Philadelphia, they have a congressional phone 
line to the District Director's office, but it's the claimant. 
There's not a special congressional staff to help. And I know 
that the claimant--or the claims examiners, they have a lot--
you know, their workload is backed up. And for them to stop and 
explain something to us, just delays their work even further. 
So maybe as a possible suggestion for the congressional point, 
if there was a staff that we could communicate with, it might 
be more effective.
    Mr. Horn. That's a good suggestion, I think for any agency, 
frankly.
    We are now finished with this panel. And I think I will try 
to bring panel III forward, if they're present. Patricia 
Dalton, the Deputy Inspector General, Office of Inspector 
General, Department of Labor, will be accompanied by Amy 
Friedlander, Evaluations and Inspections.
    And the second witness will be Shelby Hallmark, Deputy 
Director, Office of Workers' Compensation Programs, Department 
of Labor. And Shelby Hallmark will be accompanied by Sharon 
Tyler, District Director, San Francisco Regional Office.
    Mr. Hallmark. Chairman Horn, let the record show it's Mr., 
not Ms. here. My name does go both ways.
    Mr. Horn. I left it open. Thank you. If there's any staff 
behind you that are also going to advise you, we can save a lot 
of time if they stand up too and you take the oath, even if you 
aren't going to do it. But it will save us from interrupting 
the hearing to give oaths every 5 minutes.
    OK. Would you stand, raise your right hands, and those 
behind you.
    Do you affirm that the testimony you're about to give this 
subcommittee is the truth, the whole truth, nothing but the 
truth.
    [Witnesses affirmed.]
    Mr. Horn. OK. I saw seven members, four at the table and 
three in the audience.
    So let us start with Patricia Dalton, the Deputy Inspector 
General.

STATEMENTS OF PATRICIA DALTON, DEPUTY INSPECTOR GENERAL, OFFICE 
 OF INSPECTOR GENERAL, DEPARTMENT OF LABOR, ACCOMPANIED BY AMY 
FRIEDLANDER, EVALUATIONS; AND SHELBY HALLMARK, DEPUTY DIRECTOR, 
OFFICE OF WORKERS' COMPENSATION PROGRAMS, DEPARTMENT OF LABOR, 
 ACCOMPANIED BY SHARON TYLER, DISTRICT DIRECTOR, SAN FRANCISCO 
                        REGIONAL OFFICE

    Ms. Dalton. Good morning, Mr. Chairman. Thank you for 
inviting the Office of the Inspector General to discuss 
customer service issues within the Office of Workers' 
Compensation Programs at the Department of Labor.
    Over the past two decades, the OIG has devoted significant 
resources to detecting and preventing fraud and abuse within 
the FECA program through our audits, investigations, and 
evaluations. The OIG has conducted two recent evaluations of 
customer service-related issues within the FECA program.
    The first evaluation examined two timeliness issues that 
arose during the July 1998 hearing held by this subcommittee.
    [The prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED]62686.186
    
    [GRAPHIC] [TIFF OMITTED]62686.187
    
    [GRAPHIC] [TIFF OMITTED]62686.188
    
    [GRAPHIC] [TIFF OMITTED]62686.189
    
    [GRAPHIC] [TIFF OMITTED]62686.190
    
    [GRAPHIC] [TIFF OMITTED]62686.191
    
    [GRAPHIC] [TIFF OMITTED]62686.192
    
    Ms. Dalton. The second evaluation examined OWCP customer-
service surveys from 1995 through 1998.
    Following this subcommittee's field hearing last summer, 
the OIG reviewed the hearing transcript and the allegations 
made by a number of claimants.
    Specifically, we focused on two outstanding issues. The 
first issue is the timeliness of OWCP in responding to claimant 
requests for reimbursement of their out-of-pocket medical 
expenses.
    In examining the issue of claimant reimbursement for out-
of-pocket medical expenses, we found that reimbursements to 
claimants represent only 3 percent of all medical bills. OWCP 
has established standards for claimant reimbursements at the 
28-day level and the 60-day level.
    At 82 percent, OWCP's own data shows that the agency fails 
short of meeting its 90 percent standard for the 28-day period.
    However, it does exceed it's 60-day standard of 95 percent 
by paying 96.9 percent of all claimant's submitted bills within 
60 days. Recently OWCP implemented an automated bill-review 
system which they expect will further shorten the bill 
processing time.
    The second issue that arose from the July 1998 hearing 
concerns were concerns about the timeliness of surgical 
authorizations. Our review focused on OWCP's handling of 
requests for nonemergency surgery since emergency surgery is 
authorized by the employing agency.
    Our review disclosed that OWCP has now an automated system 
to track the time between requests for nonemergency surgery and 
authorizations by OWCP. Although some OWCP district offices are 
attempting to manually track this information.
    While OWCP indicates the claims examiners are working to 
expeditiously process surgical authorizations, we could not 
identify an OWCP or industry standard that is used to benchmark 
performance. To help improve the system, our report recommends 
that a performance standard be established for responding to 
nonemergency surgical requests. We believe that this would help 
to reduce claimant uncertainty about the process.
    We conducted a second evaluation where we examined OWCP's 
customer-satisfaction surveys from 1995 through 1998 to 
determine whether those surveys are useful tools in assessing 
customer satisfaction.
    Our review of the four survey reports identified a number 
of problems. We found that the 27-question 4-page survey was 
too long and difficult to complete. We recommended that OWCP 
supplement the survey with focus group data which can 
contribute to a more detailed understanding of customer service 
and concerns.
    We found that some of the five sample groups were over 
sampled while others were undersampled. Sampling of a virtually 
equal number from these groups does not reflect the 
proportional difference in the national claimant population.
    We found that the questions asked in 1-year surveys--survey 
did not specifically pertain to the sample that OWCP drew. 
Consequently, many respondents may not have returned the 
surveys assuming that it did not apply to them.
    Finally, we also found that OWCP does not retain any data 
from the surveys, thereby precluding its verification and the 
opportunity for subsequent research.
    As a result of the problems with the survey methodology, 
OWCP is unable to fully discern whether Federal injured workers 
are being adequately served by the process intended to help 
them. In order for the survey to be useful to OWCP and better 
understand the concerns of injured workers, we made a number of 
recommendations to help OWCP in the collection of high quality 
data for performance planning and managing customer service to 
Federal claimants.
    Despite the problems associated with the way OWCP surveys 
its customers, the OIG believes that OWCP has the ability to 
make the necessary corrections to allow for a more useful 
customer satisfaction survey. These changes, if implemented, 
will enable OWCP to have a better strategic planning process 
and, more importantly, help the agency to better gauge and 
address the concerns that injured Federal workers have with the 
current process.
    OWCP has indicated in their response to the evaluation--to 
our evaluation report the intent to make a number of changes in 
their survey process.
    Mr. Chairman, this concludes my prepared statement. I would 
be pleased to answer any questions that you have.
    Mr. Horn. We'll hear from the administration then if you 
can stay with us, we'll have a dialog here.
    Mr. Shelby Hallmark is the Deputy Director for the Office 
of Workers' Compensation Programs and the Employment Standards 
Administration of the U.S. Department of Labor.
    Welcome. A number of people, I think, over you were either 
out of town or something is what I'm told. So you're holding 
the whole burden. Please proceed.
    Mr. Hallmark. Thank you, Mr. Chairman, for the opportunity 
to come in to discuss the administration of the FECA program 
here today.
    As you say, I'm the Deputy Director of OWCP which is the 
oversight, the umbrella organization, one of our programs is 
the FECA program.
    I have with me today Ms. Sharon Tyler who is the District 
Director in our San Francisco Regional Office and the largest 
of the FECA offices. She's currently acting as the Acting 
Deputy Director for FECA here in the National office.
    I believe it would be helpful to review how OWCP's 
strategic plan and Government Performance and Results Act goals 
relate to this whole issue of customer service that we've been 
hearing about today and will undoubtedly continue to discuss. I 
think that provides a framework for what the organization is 
trying to do. And I would like to talk a little bit about that 
this morning.
    Obviously my written testimony is longer, and I would refer 
folks to that for more detail.
    Mr. Horn. Well, take your time. I want to give fairness to 
the administration. So take your time. We're in no hurry.
    Mr. Hallmark. I appreciate that.
    Just a general word about the volume of our work. I think 
that's an important context to consider. I believe one of the 
previous witnesses indicated the degree to which claims 
examiners are hardworking and, oftentimes, the issues that are 
raised in this kind of context are difficult.
    OWCP gets roughly 8 million telephone calls and pieces of 
mail each year. With our 950 employees, that factors out to 
almost 9,000 contacts per each and every individual in this 
program.
    We serve roughly 250,000 injured workers, injured Federal 
workers----
    Mr. Horn. Let me ask at that point just to make sure the 
record is clear, you're saying they have 8 or 9,000 calls per 
employee?
    Mr. Hallmark. Per year.
    Mr. Horn. Per year. Now, is that based on the voice mail 
where somebody might have called 10 times trying to reach a 
human being? What kind of data----
    Mr. Hallmark. The 8 million figure represents roughly 2\1/
2\ million telephone calls, which is our estimation.
    We don't have an exact number. It's an approximation based 
on our telephone systems that provide reports in some cases. We 
try to delete from that duplicates of the kind that you're 
suggesting. The other 5\1/2\ million items are pieces of mail, 
medical bills, and so on.
    Mr. Horn. Let me ask the Inspector General, have you ever 
checked the telephone numbers?
    Ms. Dalton. No, we haven't, Mr. Chairman.
    Mr. Horn. Would you take a look at it, and let us know. 
Thank you.
    Go ahead, Mr. Hallmark.
    Mr. Hallmark. Yes, sir.
    We serve, as I was saying, about 250,000 injured Federal 
workers in any given year. We pay roughly $2 billion in 
benefits each year and 96 percent of the cost of this program 
is delivered to injured workers and their medical providers 
which makes the FECA program perhaps the leanest compensation 
system in the country in terms of administrative costs.
    Most of the injuries of that 250,000 that I'm describing 
are minor ones. And OWCP basically is involved only in making 
medical payments for those individuals.
    The major source of difficulty, some of which we've heard 
about this morning, in those cases--and there are roughly 
150,000 of them each year--comes into play when the Federal 
agency, the employing agency, fails to send the notice of 
injury to OWCP timely. If we have no official notice, we cannot 
make a payment. The individual who is from a doctor's facility 
was reflecting the difficulties that occur when that happens.
    When we do have a case established, we make payments on 
medical bills. And, as I say, we receive millions of them, and 
about 90 percent of the time, we pay within 28 days. Roughly 95 
percent of the time, as Ms. Dalton was indicating, within 60 
days.
    About 50,000 workers are on long-term monthly wage-loss 
replacement benefits from OWCP. For them, we have a much more 
intense involvement. We serve as their payroll office as well 
as dealing with medical issues and other assistive services.
    A smaller group of individuals receive wage-loss benefits 
from us on a part-time basis or interim basis during the year, 
and then, in most cases, return to work. And a smaller group 
still each year, approximately 18,000 cases, are denied. And, 
obviously, in those cases many of the difficulties that some of 
the previous panels have talked about can occur where there are 
obvious differences of opinion regarding the nature of the 
case.
    A little history would be helpful, I think, in evaluating 
the FECA program. We fell behind dramatically in the 1970's in 
this program in handling the basic workload, getting cases 
adjudicated and making payments. During the 1980's, we 
instituted a number of initiatives to get a handle on that 
workload.
    We established numerous performance measures and standards 
to provide a target, and we held our staff accountable for 
accomplishing those timeframes. As a result of that, since the 
mid-to late 1980's, we have been able to adjudicate our cases 
as they come in the door relatively promptly, and we believe 
the great majority of cases are, in fact, expeditiously 
handled.
    Roughly 90 percent of all cases coming in the door are 
approved. When the GAO and the OIG have audited our programs, 
they have uniformly found that our processes are basically fair 
and reasonable.
    However, we recognized at the close of the 1980's that 
there were a number of continuing problems in this program. And 
the strategic plan that I'm about to describe to you which has 
evolved as now being a part of the Government Performance and 
Results Act effort, basically was developed to address how this 
program can transform itself to address the major issues that 
we saw.
    And those issues really were three major components. One, 
customers were frustrated with our ability to communicate with 
them effectively; two, we found that the individuals on our 
long-term rolls were often staying on the long-term rolls even 
when it appeared that their injury was not totally disabling; 
and, three, the costs of the program were escalating.
    Analyzing those issues, as I said, we chose to try to 
transform this program, and our strategic plan basically 
amounts to a transformation plan.
    The plan basically has four elements. One is return to 
work, making injured workers whole by aiding them in getting 
back to the work place. We have found that throughout the world 
the benefit and importance to society, to the individual, to 
the family, of individuals being a productive member of society 
is key.
    Two, improving overall customer service. Clearly that's the 
topic of our conversation most directly today.
    Three, enhancing fiscal integrity.
    And, four, enhancing agency and union partnerships 
throughout the Federal Government to accomplish all of the 
above goals.
    That strategic plan was, by the way, established as the 
partnership activity within our own Department of Labor family.
    We believe we've made important strides. And my written 
testimony addresses the accomplishments of the organization in 
terms of those specific measures that are identified in our 
GPRA plan including return-to-work measures, cost-containment 
measures, and customer-service measures.
    But clearly the customer-service component of our plan is 
the most challenging aspect for this program to achieve. We 
have made progress. All three of the measures that we report on 
for customer service are showing steady improvement, but we're 
not satisfied with those improvements. And clearly we will 
continue to make enhanced efforts.
    Customer service is, by definition, a labor intensive and 
very expensive undertaking. And shifting our staff's central 
concern or view of what they do in their job from being an 
adjudication and paper-processing operation to being an 
interactive, dynamic, service-providing operation is a long-
term undertaking. We believe it will take time, it will take 
improved tools, and it will take training. We know we have a 
long way to go, and we're working hard to get there.
    I cite a few examples of what we're doing. Let me just give 
you a few of the things that are in my written testimony. 
First, we've gotten more staff. In 1999, we received a 10 
percent increase in staff which had been sought for a number of 
years. It takes more people to be more responsive in a program 
like this. And even with that 10 percent increase, OWCP has 
among the highest per FTE caseloads of any program of this 
kind.
    I mentioned earlier that we get about 8,000, 9,000 calls 
and letters per person. A 10 percent increase in staff amounts 
to an 800 or 900 per person per year reduction, and that's not 
small.
    That will have a major impact on the ability of this 
program to meet the needs of the individuals we heard today and 
all the other individuals who come to us seeking services.
    [The prepared statement of Mr. Hallmark follows:]

    [GRAPHIC] [TIFF OMITTED]62686.193
    
    [GRAPHIC] [TIFF OMITTED]62686.194
    
    [GRAPHIC] [TIFF OMITTED]62686.195
    
    [GRAPHIC] [TIFF OMITTED]62686.196
    
    [GRAPHIC] [TIFF OMITTED]62686.197
    
    [GRAPHIC] [TIFF OMITTED]62686.198
    
    [GRAPHIC] [TIFF OMITTED]62686.199
    
    [GRAPHIC] [TIFF OMITTED]62686.200
    
    [GRAPHIC] [TIFF OMITTED]62686.201
    
    [GRAPHIC] [TIFF OMITTED]62686.202
    
    Mr. Horn. If I might point out, just to get it in the 
record, because it is sort of relevant and I was going to ask 
it anyhow. You mentioned the 10 percent increase. We are now in 
fiscal year 1999, and we are considering fiscal year 2000. Has 
your office, program within Labor, and you personally asked for 
the appropriate resources in the last 2 years or did you ask 
even earlier, like 1993-1994? After our hearing in Long Beach, 
I would hope that somebody got the message and said, gee, let's 
solve some of these problems. Have you asked for those 
resources at your program level?
    Mr. Hallmark. I believe the record will show that OWCP has 
been seeking substantial additional staff resources at least, 
probably before this but certainly starting with the 1992 
budget. A small number of staff were approved--additional staff 
were approved in 1992. We renewed those requests. A small 
additional increment was added in 1995. Unfortunately, in 1996, 
our resources were cut; and we were obliged to conduct a 
reduction in force.
    Mr. Horn. Let me ask----
    Mr. Hallmark. So there is a long history of trying to 
accomplish that.
    Mr. Horn. So your program reports to the Assistant 
Secretary for Employment Standards, essentially?
    Mr. Hallmark. Correct.
    Mr. Horn. He or she, in turn, reports to a Deputy Secretary 
of Labor and the Secretary of Labor. Did they approve your 
recommendations for more funding to help get at the backlog 
that Mr. Riordan mentioned? Where did it go up the line? How 
far did it go positively, let's say, from your standpoint? Did 
you have the support of the Assistant Secretary and the Deputy 
Secretary and the Secretary?
    Mr. Hallmark. I'm casting my memory back over the number of 
years that we are talking about here which, unfortunately, now 
is 7 or 8. My recollection is that, in most of those years, the 
requests made by OWCP were, in fact, at least in part passed 
forward through the system. I can't say with certainty that 
they appeared as part of the President's budget in every case, 
but in most cases, yes, they did, at least in part.
    Mr. Horn. So the Office of Management and Budget, then, 
made a decision one way or the other. And then comes the 
question, did the Secretary appeal the decision to the 
President, if it was a cut; and what eventually happened?
    I don't expect you to carry all those figures in your head 
right now. What I want to do is make a little matrix of that 
and put it in the record at this point, without objection. Then 
I would like to know if the President did make a recommendation 
and agreed with your recommendations. What did the Congress do 
in 1993, 1994, which was a Democratic Congress, and after that 
in Republican Congresses? Did they cut you? Did they add to it? 
Was there a difference between the Senate and the House?
    If you could just get your fiscal people to give us that 
type of chart. And staff here will work with you. They will 
know what I'm after here. It is sort of my usual management 
routine of, did you get it or didn't you and who sat on it so 
we can pin a little responsibility.
    If it is Congress' problem, fine, we will deal with them, 
the Authorization Committee and Appropriations Subcommittee. If 
it is the administration's problem, fine, we will deal with 
them. But I would just like to have that--to the degree to 
which people asked for the resources they need and justified 
it.
    [The information referred to follows:] 

    [GRAPHIC] [TIFF OMITTED]62686.203
    
    [GRAPHIC] [TIFF OMITTED]62686.204
    
    [GRAPHIC] [TIFF OMITTED]62686.205
    
    [GRAPHIC] [TIFF OMITTED]62686.206
    
    [GRAPHIC] [TIFF OMITTED]62686.207
    
    [GRAPHIC] [TIFF OMITTED]62686.208
    
    [GRAPHIC] [TIFF OMITTED]62686.209
    
    [GRAPHIC] [TIFF OMITTED]62686.210
    
    [GRAPHIC] [TIFF OMITTED]62686.211
    
    [GRAPHIC] [TIFF OMITTED]62686.212
    
    [GRAPHIC] [TIFF OMITTED]62686.213
    
    [GRAPHIC] [TIFF OMITTED]62686.214
    
    [GRAPHIC] [TIFF OMITTED]62686.215
    
    [GRAPHIC] [TIFF OMITTED]62686.216
    
    [GRAPHIC] [TIFF OMITTED]62686.217
    
    [GRAPHIC] [TIFF OMITTED]62686.218
    
    [GRAPHIC] [TIFF OMITTED]62686.219
    
    [GRAPHIC] [TIFF OMITTED]62686.220
    
    [GRAPHIC] [TIFF OMITTED]62686.221
    
    [GRAPHIC] [TIFF OMITTED]62686.222
    
    [GRAPHIC] [TIFF OMITTED]62686.223
    
    [GRAPHIC] [TIFF OMITTED]62686.224
    
    [GRAPHIC] [TIFF OMITTED]62686.225
    
    [GRAPHIC] [TIFF OMITTED]62686.226
    
    [GRAPHIC] [TIFF OMITTED]62686.227
    
    [GRAPHIC] [TIFF OMITTED]62686.228
    
    [GRAPHIC] [TIFF OMITTED]62686.229
    
    [GRAPHIC] [TIFF OMITTED]62686.230
    
    [GRAPHIC] [TIFF OMITTED]62686.231
    
    [GRAPHIC] [TIFF OMITTED]62686.232
    
    [GRAPHIC] [TIFF OMITTED]62686.233
    
    [GRAPHIC] [TIFF OMITTED]62686.234
    
    [GRAPHIC] [TIFF OMITTED]62686.235
    
    [GRAPHIC] [TIFF OMITTED]62686.236
    
    [GRAPHIC] [TIFF OMITTED]62686.237
    
    [GRAPHIC] [TIFF OMITTED]62686.238
    
    [GRAPHIC] [TIFF OMITTED]62686.239
    
    [GRAPHIC] [TIFF OMITTED]62686.240
    
    [GRAPHIC] [TIFF OMITTED]62686.241
    
    [GRAPHIC] [TIFF OMITTED]62686.242
    
    [GRAPHIC] [TIFF OMITTED]62686.243
    
    [GRAPHIC] [TIFF OMITTED]62686.244
    
    [GRAPHIC] [TIFF OMITTED]62686.245
    
    [GRAPHIC] [TIFF OMITTED]62686.246
    
    [GRAPHIC] [TIFF OMITTED]62686.247
    
    [GRAPHIC] [TIFF OMITTED]62686.248
    
    [GRAPHIC] [TIFF OMITTED]62686.249
    
    [GRAPHIC] [TIFF OMITTED]62686.250
    
    [GRAPHIC] [TIFF OMITTED]62686.251
    
    [GRAPHIC] [TIFF OMITTED]62686.252
    
    [GRAPHIC] [TIFF OMITTED]62686.253
    
    [GRAPHIC] [TIFF OMITTED]62686.254
    
    [GRAPHIC] [TIFF OMITTED]62686.255
    
    [GRAPHIC] [TIFF OMITTED]62686.256
    
    [GRAPHIC] [TIFF OMITTED]62686.257
    
    [GRAPHIC] [TIFF OMITTED]62686.258
    
    [GRAPHIC] [TIFF OMITTED]62686.259
    
    [GRAPHIC] [TIFF OMITTED]62686.260
    
    [GRAPHIC] [TIFF OMITTED]62686.261
    
    [GRAPHIC] [TIFF OMITTED]62686.262
    
    [GRAPHIC] [TIFF OMITTED]62686.263
    
    [GRAPHIC] [TIFF OMITTED]62686.264
    
    [GRAPHIC] [TIFF OMITTED]62686.265
    
    [GRAPHIC] [TIFF OMITTED]62686.266
    
    [GRAPHIC] [TIFF OMITTED]62686.267
    
    [GRAPHIC] [TIFF OMITTED]62686.268
    
    [GRAPHIC] [TIFF OMITTED]62686.269
    
    Mr. Horn. Now, in this strategic plan, which was new to all 
of the executive branch and was asked for it 5 years before 
they had to do it--and I want to go through that now with the 
Inspector General. I hope you have a copy of that, do you, of 
their strategic plan?
    Ms. Dalton. I don't have it with me.
    Mr. Horn. Can we give Ms. Dalton a copy of that? I think 
the staff here has it.
    What I want to do is just go through those charts that you 
have in your appendix, and I would like the Inspector General 
to take a look at those and see what they could provide. 
Because you are doing the right thing in the sense of looking 
at the goals you should achieve in a matter of time and dealing 
with the cases and so forth.
    The gripe I have heard from hundreds of Federal injured 
workers is that, too often, they don't get approval to get the 
medical therapy that they need if they are going to get back to 
work and that, I think, we have just got to focus on, who sits 
on those appeals and who lets them go. I think that is one of 
the things we need to deal with.
    Here on the Department of Labor's Strategic Goal 2, A 
Secure Workforce; and your Outcome Goal, Protect Worker 
Benefits. Now, you say fiscal year 1999 funding, not known. 
Cost accounting for discreet GPRA, which is the Government 
Performance and Results Act, which we take very seriously up 
here--I think we have to take a look at these in terms of the 
Inspector General for Labor as a whole and say: Is there 
something else that can be done here? Does what you want to do 
in your strategic goals really relate to what your fiscal plan 
is when you send it over to OMB and the President as to the 
resources you need?
    So I just think we need a little analysis of that. Is this 
just talk and hokum or is the money there? As they say, where's 
the money? And we need to know that. And we need to know if the 
money was given. Some agencies never put it on computers, they 
put it on people. Others put it only on computers and don't put 
it on people. So some of what I would like to do is just have 
your two offices work it out, put it in the record at this 
point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.270
    
    [GRAPHIC] [TIFF OMITTED]62686.271
    
    [GRAPHIC] [TIFF OMITTED]62686.272
    
    [GRAPHIC] [TIFF OMITTED]62686.273
    
    [GRAPHIC] [TIFF OMITTED]62686.274
    
    [GRAPHIC] [TIFF OMITTED]62686.275
    
    [GRAPHIC] [TIFF OMITTED]62686.276
    
    [GRAPHIC] [TIFF OMITTED]62686.277
    
    [GRAPHIC] [TIFF OMITTED]62686.278
    
    [GRAPHIC] [TIFF OMITTED]62686.279
    
    [GRAPHIC] [TIFF OMITTED]62686.280
    
    [GRAPHIC] [TIFF OMITTED]62686.281
    
    [GRAPHIC] [TIFF OMITTED]62686.282
    
    [GRAPHIC] [TIFF OMITTED]62686.283
    
    [GRAPHIC] [TIFF OMITTED]62686.284
    
    [GRAPHIC] [TIFF OMITTED]62686.285
    
    [GRAPHIC] [TIFF OMITTED]62686.286
    
    Mr. Horn. I think the question raised by Beth Balen, 
administrator of the Anchorage Fracture and Orthopedic Clinic, 
is a very good one. To what degree is the power there for the 
Office of Workers' Compensation Programs to adjust based on 
cost of living? San Francisco is a pretty high living place. 
Seattle, we know is; certainly Alaska is.
    Do you have the authority to adapt those to the point, Ms. 
Balen, made in terms of things they just have to write off 
because it isn't reasonable in terms of their own economy?
    Mr. Hallmark. Yes, Mr. Chairman. The OWCP fee schedule is, 
in the case for the Anchorage institution, is a relative value 
fee schedule which we adopted based on--originally based on the 
Washington State Workers' Compensation Program System and 
subsequently modified to follow that used for the Medicare 
program as established by the Health Care Financing 
Administration. It is geographically based. That is to say, 
there is a component of the system that takes into account cost 
of living, cost of business, cost of real estate, et cetera, in 
the different geographical regions.
    We are aware that some States have higher fee schedules 
than the OWCP schedule; others have lower. Our schedule, at 
least at the last review we did, fell almost exactly in the 
middle. I think there are 23 States below and 26 or 27 States 
higher. So we have attempted to be--to address geographical 
issues.
    Obviously, in the case of Alaska, what we are hearing today 
is that, from the perspective of at least this provider, set of 
providers, our schedule is too low for that State. It is 
something that is a part of our regulatory structure. We can 
look at it to determine whether there is a need for adjustment 
in that regard, and we will do that.
    Mr. Horn. Another point Ms. Balen made, which makes sense 
to me, is easier access to claim payment office. What are we 
doing on that front?
    Mr. Hallmark. If by that she is referring to the issue of 
telephone calls and of calling in to address ways of resolving 
problems, we have a whole series of things we are trying to do 
to accomplish exactly that.
    I didn't quite get through my statement, but it addresses 
some of the issues that we are trying to work on now in terms 
of improved communication systems, improved technology. We're 
moving to a fully electronic world which we believe will have a 
tremendous impact on customer service.
    One of the problems, and cited by some of the panel members 
this morning, has been that keeping track of millions of pages 
of paper is a very difficult task. We believe that an imaging 
system, which we are currently building and expect to implement 
in 19--I'm sorry, fiscal year 2000 will greatly improve our 
ability to handle a wide range of these issues and especially 
medical bills.
    All of our offices have communication plans. All are trying 
to work on improving the access to telephones. We have, I 
believe, in almost every office, if not every office, ways for 
individuals to call and receive an individual response. 
Sometimes, as we have seen today, that doesn't work. We're 
obviously working hard to improve it.
    Mr. Horn. One of the questions that came up was the 
difficulty of tracking a case if you did not have the case 
number. Isn't there a way to solve that with a master index by 
name and the last four digits in the Social Security number or 
something like that?
    Mr. Hallmark. Mr. Chairman, we have that. I think in the 
vast majority of cases, the problems that Ms. Balen was 
referring to, the Federal agency hasn't sent us the claim. If 
they haven't sent us the claim, there's nothing for us to 
interface with. We don't have an electronic connection to the 
Department of the Interior or the Forest Service to find out 
information about an individual who has been injured. It is 
only when the notice of injury comes to us that we can create 
that electronic record with the name, with the case number, 
with other identifiers.
    Mr. Horn. On that point, suppose an agency doesn't give 
them the forms? We had testimony to that effect. And certainly, 
when I met with a number of Federal injured workers, and it has 
been mentioned already this morning, a lot of them are U.S. 
Postal Service employees, they couldn't even get the form out 
of their personnel office. Can't they apply to your agency and 
get the forms if we have got the post office in parts of the 
country refusing to recognize there's a problem here?
    Mr. Hallmark. Well, we are certainly aware of the legal 
requirement that Federal agencies have to do this work and to 
do it with speed, and where we see--where we have evidence that 
is presented to us that, in fact, agencies are knowingly 
restricting or obstructing this program, we take action, and we 
take it right to the top of the agency to try to get it 
attention and get the problem solved. In fact, our IG conducted 
several years ago a joint study with the Inspection Service of 
the Postal Service to address and try to pinpoint exactly that 
kind of problem. So we are anxious to address that kind of 
issue, and we do.
    I would note, however, that oftentimes we do go back to the 
agency, and we heard one individual replying today who had 
trouble, apparently, getting information from the agency about 
the fact that he was an employee. We can only do so much. We 
can go to the agency and ask them. We are not an enforcement 
agency. We cannot force a Federal agency to hand us materials 
which they don't do.
    Obviously, at a certain point we can move to a U.S. 
attorney and seek to achieve some sort of prosecution, but our 
U.S. attorneys are also busy individuals, and it is difficult 
to make that kind of case.
    Mr. Horn. Other points that Ms. Balen made, which certainly 
are those that we have had, less paperwork for the patient, 
employer and physician to complete, which would speed up the 
entire process, make it less prone to error; and she 
elaborates, overall simplification of the process by reducing 
the length and number of forms; the authorization process, 
whereby a condition is accepted as work-related; and 
improvement in access to the claims office.
    There may be States with workers' compensation systems, 
such as the State of Washington, just south of Alaska, which 
would work well and might be used as a model. Has the agency 
looked at some of the State systems and how they have speeded 
this up so the worker is not dangling out there not knowing 
whether they are going to be covered or not covered or the 
medical bills are going to be paid? What are we doing to just 
help the average citizen that is a Federal worker?
    Mr. Hallmark. We have looked at the information that is 
available for a number of State systems. There is something of 
a paucity of actual performance information about how the 
different States work. Some of that information is proprietary 
because the systems are private, insurance-driven systems.
    We have a number of initiatives in place to do many of the 
things that Ms. Balen was referring to.
    We have just recently moved to automated receipt and 
payment of pharmacy bills. That started in July 1998. We 
believe that will--as the IG report indicates, we believe that 
will significantly improve service to claimants who will no 
longer be required to make out-of-pocket payments because the 
pharmacy can readily and quickly send the bill to us 
electronically and receive payment directly from us.
    We are likewise working on electronic billing processes for 
physicians and for hospitals, and we are looking at electronic 
transmission. We are working with the Postal Service, VA and 
DOD right now to ensure that we can get the electronic claim in 
the first place.
    All of these things will not only speed up the process, 
they will cut down the amount of confusion with respect to 
submitting forms and other paper. It is understandable that a 
doctor in Alaska, who may not deal with OWCP that much, knows 
the laws and the procedures in Alaska but the OWCP Federal 
process is different. So we want to try to smooth that.
    I would also note that where we receive the information 
from a doctor with regard to the medical evidence that we need, 
if we receive it in the form of notes or other materials, if it 
is the information we need, we are not going to send that back 
and say, no, no, it must be on this form and you must fill out 
box 3. We have to have the claim in the first place, but once 
we have the claim, we do our best to try to use the information 
that we can, in fact, procure.
    Mr. Horn. Mr. Linehan noted in his recommendations that we 
just allow the Federal employees to have a basic right of 
Federal Court review of the workers' compensation claim and the 
due process? Has the administration thought of recommending 
that?
    Mr. Hallmark. I can't speak for the administration as a 
whole.
    Mr. Horn. Well, let's say the administration of the agency 
and then move it to the administration of the Department and on 
up.
    Mr. Hallmark. It is OWCP's view that the FECA program is 
structured along the lines of the model workers' compensation 
programs as they were created in the early part of this 
century. The intent of workers' compensation was to be a no-
fault nonadversarial program. The intent was to ensure that 
benefits could be delivered quickly to injured workers without 
the attendant difficulties that had been experienced in the 
tort system.
    Now, many State systems have moved back in the direction of 
litigation and the kind of lawyerly process that Mr. Linehan 
suggested. We don't believe that's necessarily the best policy 
approach. The reason why OWCP delivers 96 percent of its $2 
billion benefits to the injured workers and their medical 
providers is because we have a straightforward, nonadversarial 
process.
    Now, obviously, we want to make it work better; and we are 
anxious to make it work better.
    Mr. Horn. I guess I would ask, is it really nonadversarial? 
It sounds like it is the clientele versus bureaucracy and it is 
fairly adversarial.
    Forget the applause, please.
    It just seems to me that the job of the agency must, 
overall, be fairness. You don't have to save the pot of money, 
and I hope that isn't the way you are judged. What you have to 
do is make sure that if people have an injury that is work 
related that they can be processed and have the benefits that 
the law provides. And as an administrative agency, it seems to 
me, if I were the head of it, I would be saying, hey, folks, 
there has to be a turnaround here in attitude.
    It is exactly the same problem that Commissioner Rossotti 
faces in the Internal Revenue Service when we had long rows of 
witnesses from all over America before the Ways and Means 
Committee and Senate Finance that said, hey, we have been 
treated like dirt. We have a problem here. Who is going to do 
anything about it? Well, Congress did do something about it. 
They put an advisory board in.
    Of course, the President hasn't submitted one name yet, and 
he fought us tooth and nail on doing anything to change the 
bureaucracy, but he signed the bill. And it could be that we 
need to do that to a number of agencies, maybe yours included, 
with an outside board that could look at and be available for 
complaints when people aren't served.
    Now, I realize there are a lot of people that don't deserve 
the benefits. I had that under workers' comp. I understand 
that. And there's a lot of people that think the government 
owes them a living, and when they retire they decide to figure 
out some injury to get additional benefits. I know all of that, 
and I have been through it as an employer, as head of a 
university.
    It was very simple. We just told our lawyers, if we are 
going to have this nonsense and they are fraudulent claims, 
let's make them know that they're in for a battle. And once you 
do that, usually that type of person that thinks they can get a 
few bucks when they aren't injured, or faking an injury, that 
type of person usually is going to go somewhere else and not 
take on the people.
    But, again, that becomes an adversarial process. Sometimes 
it has to be, and you will let a neutral, such as a judge, 
decide what was right here and what was wrong. All I am saying, 
and I think all Congress would say is, look, if people who are 
Federal employees have injuries, we want to treat them fairly. 
And your administration here of the agency, we have got to deal 
fairly. And if it means firing a few Regional Directors and 
firing a few caseworkers, I realize that's hard with the Civil 
Service, but maybe the whole thing should be privatized. I 
don't know, but you have got to get responsiveness out of the 
bureaucracy.
    I have found that usually, when you set the goals, the 
people will respond if they are fair and want to do the right 
thing. But there are always some in every organization, I don't 
know about this one, yours, anyone down the street, that people 
just don't get the message that the clients aren't out there 
just so they can have a job. They have a job so they can help 
people, and that's what we need to focus on here.
    I guess I would ask you this: Do you make your Federal 
Employees' Compensation Procedure Manual available to injured 
Federal workers to help assist them through the appeals 
process? What is the policy of the agency on that?
    Mr. Hallmark. Well, we have the Federal procedure on the 
Internet. It is available. We have recently updated our 
regulations to make them in a question-answer format to make 
them more usable for injured workers and their representatives 
as a means for pursuing their claims straightforwardly.
    And I need to take a little issue with Mr. Linehan's 
position that there are no rights for individuals and that no 
one is looking over OWCP's shoulder. We have well-established 
and multiple avenues for appeal within the agency and outside 
the agency to the Employees' Compensation Appeals Board. It 
does provide an objective review, and as do the 
reconsiderations and oral hearings that are provided within the 
agency.
    In addition to that, an individual who can show or allege 
that a violation of their constitutional rights has been 
effectuated by OWCP can take their case to the District Court, 
and some do. So it is not the case that we are without any 
oversight. In fact, we have, as I said, I believe a reasonable 
process.
    Mr. Horn. Well, you have two appeal processes, don't you?
    Mr. Hallmark. Actually, three.
    Mr. Horn. Three? Because I think there is a confusion out 
there as to whether these are real appeals. And maybe I'm all 
wrong on that, but one does the same thing the other does, and 
is it really an outside appeal?
    Mr. Hallmark. The three processes are first, 
reconsiderations, which are done within the district office. 
When a reconsideration is done, it is done by a claims examiner 
who has had no involvement in the case previously; who looks at 
it with fresh eyes.
    I don't have the data right now, but I think that something 
over 35 percent of reconsiderations, possibly higher than that, 
result in the original decision being overturned. So we have 
good reason to believe there are fresh eyes being applied.
    Second, the oral hearing is done by staff located here in 
the national office who travel to the site and do a complete 
review, including presentation of evidence. Something in the 
neighborhood of 30 plus percent of those cases are overturned 
and sent back for further processing because they have found 
that an error was made.
    Third, the ECAB, likewise, is an independent organization 
which reviews the entire case file as it is presented, and I 
believe something less than 30 percent of those cases are 
overturned.
    So the process from our perspective, appears to work. 
Obviously, we continually monitor it, and we look at the 
quality of our cases. We have an elaborate accountability 
review process, and one of our customer service measures is to 
ensure that our decisions that we are making in the first 
instance are correct or according to procedure. We measure that 
very closely, and we report that as part of our GPRA plan.
    Mr. Horn. Let me continue on this appeal process. You were 
probably in the room when the Sheila Williams case was 
mentioned. She is Acting Director, and Mr. Chamberlin phoned 
and said, could you explain the appeal process to me? Now, all 
I can say is if it is so simple why would she have to do 
research to answer Mr. Chamberlin's question?
    Mr. Hallmark. Well, I can't speak to the exact 
circumstances, obviously, in that particular case. Every single 
case is different. The response that one needs to make in a 
given case may have to do with the particular appeal rights 
that were issued by the previous decider. And, in this case, it 
is possible that the appeal rights that were issued by the 
decider were incorrect.
    Ms. Williams happens to be in the room here this morning, 
so I don't know whether she can speak, and we are governed by 
the Privacy Act in discussing individual case issues, so I 
don't want to go too far down the line of suggesting specifics.
    Mr. Horn. We would be glad to have a letter and put it at 
this point in the record if she feels she has been misquoted, 
et cetera.
    Mr. Hallmark. And if I could just beg your indulgence, I 
would say that Ms. Williams, who is our Deputy Director for 
FECA and is Acting Director right now, in the regular course of 
her work talks with hundreds of claimants, their 
representatives, congressional staff and so on on a regular 
basis. And she is--I believe we could find many, many 
individuals who would tell you that she is not only gracious 
and helpful but that she goes out of her way on every single 
day to provide the kind of services that I think you would want 
if you were an injured worker. I think that is true of Ms. 
Williams, who is an extraordinary person; also true of the vast 
majority of our staff who are working very hard.
    Mr. Horn. Well, as I remember the testimony, it wasn't that 
she wasn't helpful, it was that she said I'm going to have to 
do research on this and never got back to the individual. So we 
need to straighten that out with a letter.
    Mr. Hallmark. We will certainly reply for the record.
    Mr. Horn. All right. Now, I guess I would ask Mr. Hallmark, 
the testimony regarding Regional Director Hamlett, and that has 
been confirmed by two witnesses, does the agency plan to have a 
little--I guess in China it would be Mao, putting people in the 
fields to get right with what they ought to be doing as opposed 
to what they are doing. So did that shock you, that the 
Director would come screaming down the hall and all that?
    Mr. Hallmark. I had been informed by Mr. Hamlett that this 
event occurred. He had advised me somewhat differently about 
the circumstances. We will certainly investigate.
    Now, having heard in some detail what we heard this 
morning, we will certainly investigate to determine what 
actually happened, both in the event that occurred in the 
hallway and on the conference call that was also described at 
some length in Mr. Riordan's testimony.
    Clearly, our folks try to be as courteous and sympathetic 
as they possibly can be. There are occasions where emotions run 
high. If we are discourteous in ways that are inappropriate, we 
need to take remedial action. Whether it is a reeducation 
process, as you suggest, we will have to determine.
    Mr. Horn. With Ms. McGuinness' testimony there was also the 
testimony about District Director John Lawrence, and that has 
been submitted for the record. It will be transcribed and we 
will send you a copy of it, and you can ask us, or please file 
if you think further comment is necessary on that to clarify it 
one way or the other from the agency's standpoint.
    Mr. Hallmark. Yes, sir.
    Mr. Horn. Now let me go to what I regard as a very serious 
aspect, and that is the subcommittee has learned of adverse 
personnel actions that were initiated against Joseph Perez, a 
former hearing representative for the Office of Workers' 
Compensation Programs. We hope there has not been any negative 
recourse taken against Mr. Perez for his whistle-blowing 
activity or his testimony before the subcommittee last year. 
The timing of this has us concerned. Do you know anything about 
it?
    Mr. Hallmark. As it happens, I do. I'm part of the process 
that has been involved in the particular instance you talk 
about.
    Again, under the Privacy Act I don't know that it is 
appropriate for me to get into specific discussions with regard 
to personnel actions. I certainly would be willing and eager to 
provide information for the record, but I certainly don't want 
to violate the Privacy Act in this hearing.
    Mr. Horn. Well, we will be glad to insert your comments in 
the record at this point without objection.
    I will tell you that when congressional witnesses are 
sanctioned by agencies when they are telling the truth, it 
makes us very unhappy up here; and that happiness or 
unhappiness only goes away when we cut about half the 
administration's office budget and see how they like that for a 
while.
    But I have told one Cabinet officer if he fires that 
Inspector General he will be up here quite often under 
subpoena. Inspector Generals are there to do their duty, and 
they have done a great job over the last 20 years, and all I 
can say is I would not punish a witness before a congressional 
committee. That upsets people. And I don't care how they cover 
it up, it looks that way.
    And I would just say if you have got an answer for it, 
great, we will file it for the record, we will take a look at 
it, but we don't think that's the way you treat people. We have 
had that problem in the Pentagon in spades over the years. So 
that doesn't make us too happy.
    Let's see. We have about one more item, and then I think we 
can call it a day. Some of them we will send down to you 
because it will take staff work to give us an answer.
    The Inspector General's report on the medical 
authorizations, Ms. Dalton. The subcommittee has heard many 
complaints from injured Federal workers, as I have noted 
earlier, that it takes an unreasonably long time to receive 
authorization for a surgery, that sometimes their immediate 
injury gets worse during the waiting period. Does the Office of 
Workers' Compensation Programs set standards to measure how 
quickly and efficiently it is making decisions?
    Now, Ms. Friedlander, I think you are supposed to be the 
expert on evaluations for the Inspector General. What can you 
do to educate us on how do they measure their performance and 
do you feel the claimants are well informed through the 
process?
    Ms. Friedlander. Mr. Chairman, it appears to us that 
claimants are confused at times, and we make this 
recommendation with the hope that if claimants get a prompt 
response, they at least know that the agency has heard them.
    We heard today information confirming that suspicion that 
we have, and we think that this first step, if we tried it, and 
then we measure the results of that, would tell us whether we 
need to take any further steps or whether this is enough.
    Mr. Horn. Any comments to add to that, Ms. Dalton?
    Ms. Dalton. No, I think I would just concur with what Ms. 
Friedlander had to say. As we looked at the data we did not 
find serious problems. We had looked at 69 cases out of the 
Philadelphia region and, on average, an authorization was 
provided within 26 days. However, there were a number of 
outliers in that group.
    Mr. Horn. On the survey in general, I guess I would ask, as 
you looked at the customer service at the Office of Workers' 
Compensation Programs, do you find their customer service 
survey a useful tool for providing information about customer 
service? I mean, how many questions do you need? I'm familiar 
with this with faculty evaluations by students, and I have 
found that really about one or two questions is all you need to 
find out what's really going on in the classroom. How about 
you? What's the situation here?
    Ms. Dalton. We found the survey, as I said in my testimony, 
to be too long, too complex, and that it certainly could use 
significant improvements. And we made a number of suggestions 
to the Office of Workers' Compensation Programs on how to go 
about that as well as to improve the way that they are drawing 
their sample to get more reliable information. The way it is 
being done right now we did not feel it was a good measure of 
customer satisfaction, and certainly there is room for 
improvement.
    Mr. Horn. Well, I would agree with you on that, and we have 
had submitted to us from people all over the country a lot of 
different surveys, and we will put an exhibit in the record on 
those surveys and what they show us one way or the other. So we 
thank you for going over that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.287
    
    [GRAPHIC] [TIFF OMITTED]62686.288
    
    [GRAPHIC] [TIFF OMITTED]62686.289
    
    Mr. Horn. Mr. Hallmark, is there anything you would like to 
sum up on? Feel free. We will keep the record open, obviously.
    Mr. Hallmark. I wanted to speak for a moment about the 
medical authorization issue. We appreciate the work that the IG 
has done in this area. Prior to this, we had established in 
each Regional Director's performance agreement a requirement 
that they begin this year to capture data with respect to the 
whole range of medical authorization, following in part on the 
issues that were raised last summer in Long Beach.
    We intend to look at that data closely and determine what 
areas, if any, we think need to have a performance standard and 
what that would look like. It is a complex issue because some 
things can be done very quickly, other things require a second 
opinion. If it is a back surgery and a complex issue, we don't 
want to establish a standard that would, in effect, not fit the 
circumstance where our most significant problems are. So that 
is the tack that we have taken within OWCP, and we expect to 
address it.
    Again, I would say, in summary, that I think we are aware 
of the need to provide much better customer service. We have 
projects in place to try to do that.
    One of the issues that I believe you mentioned yourself, 
Mr. Chairman, about the attitude of workers in this program, is 
something that we have been working on and are continuing to 
work on. As I say, this is an effort on our part to transform 
ourselves to become a dynamic service entity; that is, to view 
ourselves as service providers rather than gatekeepers. We are 
going to get there, and we are working very hard to do that.
    There are some cases where denials occur, where disputes, 
oftentimes long-standing disputes, between the employee and 
their employing agency are intense. They get transferred to the 
OWCP environment when a denial occurs or information doesn't 
change hands, and we end up with the difficulty of trying to 
address those cases. It is a very hard thing for us to do.
    I think our folks struggle very manfully--and womanfully--
to try to accomplish it, and we are going to continue to try to 
make that performance better.
    Mr. Horn. Very good. At this time I would like to place in 
the record a statement from John D. McLellan, Jr., a former 
Director of the FECA Program. The statement outlines his 
thoughts concerning the administration of FECA at the OWCP.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]62686.290
    
    [GRAPHIC] [TIFF OMITTED]62686.291
    
    [GRAPHIC] [TIFF OMITTED]62686.292
    
    [GRAPHIC] [TIFF OMITTED]62686.293
    
    [GRAPHIC] [TIFF OMITTED]62686.294
    
    Mr. Horn. I would also like to read into the record the 
people that helped develop this hearing besides the Federal 
injured workers that we heard from from all over the country, 
which were very helpful.
    J. Russell George, the staff director, chief counsel, who 
is not here right now, and that's for the Government 
Management, Information, and Technology Subcommittee.
    On my left, your right, is the gentleman that prepared most 
of the work on this hearing, Matthew Ebert, an excellent senior 
policy adviser to the committee.
    And Bonnie Heald, director of communications, is back here; 
and next to her is Mason Alinger, our clerk for putting this 
all together. Faith Weiss, minority counsel, is over here; and 
Earley Green, minority staff assistant.
    We had two court reporters today, Julia Thomas and Pam 
Garland; and we had two sign language interpreters, Jan 
Nishimura and Earl Fleetwood.
    We thank you all for your help; and, with that, this 
hearing is adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED]62686.295

[GRAPHIC] [TIFF OMITTED]62686.296

[GRAPHIC] [TIFF OMITTED]62686.297

[GRAPHIC] [TIFF OMITTED]62686.298

[GRAPHIC] [TIFF OMITTED]62686.299

[GRAPHIC] [TIFF OMITTED]62686.300

[GRAPHIC] [TIFF OMITTED]62686.301

[GRAPHIC] [TIFF OMITTED]62686.302

[GRAPHIC] [TIFF OMITTED]62686.303

[GRAPHIC] [TIFF OMITTED]62686.304

[GRAPHIC] [TIFF OMITTED]62686.305

[GRAPHIC] [TIFF OMITTED]62686.306

[GRAPHIC] [TIFF OMITTED]62686.307

[GRAPHIC] [TIFF OMITTED]62686.308

[GRAPHIC] [TIFF OMITTED]62686.309


</pre></body></html>
